August 2009
Report No. EVAL-09-006


The FDIC’s Role in the Monitoring of
IndyMac Bank

                          
                                                                                                        Executive Summary
                                                                                                    Report No. EVAL-09-006
                                                                                                                August 2009

                                          The FDIC’s Role in the Monitoring of IndyMac Bank

                                          Results of Evaluation

                                          In its role as insurer, the FDIC identified and monitored risks that IMB presented to
                                          the Deposit Insurance Fund by participating with the OTS in on-site examinations
                                          of IMB in 2001, 2002, 2003, and again shortly before IMB failed in 2008 and
Background and Purpose                    through the completion of required reports and analysis of IMB based upon
of Evaluation                             information from FDIC monitoring systems. FDIC risk committees also raised
                                          broad concerns about the impact that an economic slowdown could have on
The Office of Thrift Supervision          institutions like IMB that were heavily involved in securitizations and subprime
(OTS) closed IndyMac Federal              lending. Nevertheless, FDIC officials consistently concluded that despite its high-
Savings Bank (IMB) on                     risk profile, IMB posed an ordinary or slightly more than ordinary level of risk to
July 11, 2008. As of July 31, 2009,       the insurance fund. It was not until August 2007 that the FDIC began to understand
the estimated cost of the resolution to   the implications that the historic collapse of the credit market and housing
the Deposit Insurance Fund is             slowdown could have on IMB and took additional actions to evaluate IMB’s
approximately $10.7 billion.              viability.

The OTS was the primary federal           Our evaluation presents the FDIC’s monitoring efforts of IMB in three periods:
regulator (PFR) for IMB and was
statutorily responsible for conducting     • Phase 1: 2001-2003: During this time, the FDIC was actively engaged in
full-scope on-site examinations of           monitoring IMB and participated with OTS in on-site examinations.
IMB to assess safety and soundness,
and compliance with consumer               • Phase 2: 2004 through Mid-2007: The FDIC discontinued participating in
protection laws and regulations.             on-site examinations and relied on OTS examinations and off-site monitoring
                                             tools and systems to monitor IMB. The FDIC also experienced turnover in the
The FDIC has the unique role of              case manager position responsible for monitoring IMB.
insuring deposits in the nation's
financial institutions. In this
                                           • Phase 3: Mid-2007 through Mid-2008: In response to problems at
capacity, the FDIC is responsible for
                                             Countrywide, the FDIC reassessed IMB and other financial institutions with
regularly monitoring and assessing
potential risks to the Deposit
                                             similar business models, exercised back-up examination authority, and
Insurance Fund. The Division of              downgraded its Large Insured Depository Institution (LIDI) rating of IMB. The
Supervision and Consumer Protection          FDIC raised IMB’s insurance premium assessment beginning in 2008 but did
(DSC) monitors non-FDIC                      not take, or suggest that OTS take, any enforcement action against IMB. The
supervised institutions, such as IMB,        FDIC cited OTS’ consistently favorable composite ratings and the protracted
through its Case Manager Program             process for taking such action as substantial obstacles.
and a number of monitoring systems.
Additionally, the FDIC, by statute,       Because the FDIC has taken and is considering actions to address lessons learned
has special examination authority and     from recent events in the banking industry and because our evaluation focused on
certain enforcement authority for all     one institution, we did not make recommendations to the Corporation. Instead we
insured depository institutions for       identified four matters for further study and consideration related to:
which it is not the PFR.
                                           • The FDIC’s frameworks for establishing a supervisory approach and making
The objective of our review was to           deposit insurance determinations.
evaluate the FDIC’s role in                • Delegations of authority and reporting requirements surrounding back-up
monitoring IMB, including                    examination authority decisions.
determining: (1) when the FDIC             • Appointment and transition of case managers for large, high-risk institutions.
became aware of problems at IMB
                                           • Authorities related to requesting back-up examinations and pursuing
and (2) what actions were taken by
the FDIC to mitigate those problems.
                                             enforcement actions against non-supervised institutions.

To view the full report, go to
                                          Management Response
www.fdicig.gov/2009reports.asp
                                          DSC provided a written response to a draft of this report. DSC’s response
                                          addressed steps underway to track all back-up examinations and to address case
                                          manager appointment and transition.
                                 TABLE OF CONTENTS

EVALUATION OBJECTIVE AND APPROACH                                                1

BACKGROUND                                                                       2
   History of IMB FSB                                                            2
   OTS’ Responsibility and Authority                                             3
   FDIC’s Responsibility and Authority                                           4

RESULTS IN BRIEF                                                                 12

EVALUATION RESULTS                                                               14
   Phase 1: 2001 through 2003 - FDIC Actively Engaged in Monitoring IMB          14
   Phase 2: 2004 through Mid-2007 – The FDIC Did Not Participate in On-site      17
   Examinations
   Phase 3: Mid-2007 through Mid-2008 - FDIC Resumes On-Site Presence            22
   and Evaluates IMB’s Viability

CONCLUSIONS AND MATTERS FOR FURTHER CONSIDERATION                                30

CORPORATION COMMENTS AND OIG EVALUATION                                          32

APPENDICES
   I. Objective, Scope, and Methodology                                          33
   II. Glossary of Terms                                                         34
   III. Case Manager Responsibilities                                            36
   IV. Timeline of Significant Events                                            37
   V. FDIC Offsite Monitoring Systems and Reports                                39
   VI. Large Insured Depository Institution (LIDI) Ratings                       42
   VII. PCA Capital Categories and Brokered Deposit Restrictions                 43
   VIII. Financial and Supervisory Data for IMB – 2001-2008                      44
    IX. Corporation Comments                                                     45

TABLES
   Table 1:    IMB’s Business Profile                                             2
   Table 2:    CAMELS Composite Ratings                                           4
   Table 3:    LIDI Ratings                                                       8
   Table 4:    Risk-Based Assessment Matrix Effective Until January 2007         11
   Table 5:    New Risk Categories Effective January 2007                        11
   Table 6:    Financial and Supervisory Data for IMB – 2001 to 2003             14
   Table 7:    Snapshot of the FDIC’s Monitoring and Supervision Activities of   15
               IMB – 2001 to 2003
   Table 8:    Financial and Supervisory Data for IMB – 2004 to mid-2007         17
   Table 9:    Excerpts from Selected SFRO Risk Committee Reports                18
   Table 10:   Snapshot of the FDIC’s Monitoring and Supervision Activities of   19
               IMB – 2004 to mid-2007
   Table 11:   Tenure of IMB Case Managers                                       20
   Table 12:   Financial and Supervisory Data for IMB – mid-2007 to mid-2008     23
                         TABLE OF CONTENTS (Continued)

   Table 13: Excerpts from Selected SFRO Risk Committee Reports                     23
   Table 14: Snapshot of the FDIC’s Monitoring and Supervision Activities of        24
              IMB – mid-2007 to mid-2008
   Table 15: IMB Insurance Assessment Payments 2001 to 2008                         25



                        ACRONYMS IN THE REPORT

CAMELS        Capital, Asset quality, Management capability, quality and level of
              Earnings, adequacy of Liquidity, and Sensitivity to market risk.
DIR           Division of Insurance and Research
DRR           Division of Resolutions and Receiverships
DSC           Division of Supervision and Consumer Protection
E&Y           Ernst & Young
OCC           Office of the Comptroller of the Currency
OTS           Office of Thrift Supervision
ORL           Offsite Review List
FDIC          Federal Deposit Insurance Corporation
FFIEC         Federal Financial Institutions Examination Council
FHLB          Federal Home Loan Bank
FRB           Federal Reserve Board of Governors
FSB           Federal Savings Bank
IMB           IndyMac Bank, Federal Savings Bank
LIDI          Large Insured Depository Institution
PCA           Prompt Corrective Action
PFR           primary federal regulator
QLA           Quarterly Lending Alert
RAC           Risk Analysis Center
REIT          Real Estate Investment Trust
RRPS          Risk Related Premium System
SAER          Summary Analysis of Examination Report
SFRO          FDIC San Francisco Regional Office
TFR           Thrift Financial Report
ViSION        Virtual Supervisory Information on the Net
Federal Deposit Insurance Corporation                                                           Office of Evaluations
3501 Fairfax Drive, Arlington, VA 22226                                                  Office of Inspector General




DATE:                                     August 27, 2009

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection


                                          [Signed]
FROM:                                     E. Marshall Gentry
                                          Acting Assistant Inspector General for Evaluations

SUBJECT:                                  The FDIC’s Role in the Monitoring of IndyMac Bank
                                          (Report No. EVAL-09-006)

This report presents the results of our evaluation of the FDIC’s role in monitoring IndyMac
Bank, FSB, Pasadena, California (IMB), performed at the request of the FDIC Chairman. The
Office of Thrift Supervision (OTS) closed IMB on July 11, 2008, and the FDIC was named
conservator. The FDIC transferred insured deposits and substantially all of IMB’s assets to
IndyMac Federal Bank, FSB. IMB had total assets of $32.01 billion and total deposits of
$19.06 billion as of March 31, 2008. As of July 31, 2009, the estimated cost of the resolution to
the Deposit Insurance Fund is approximately $10.7 billion.

EVALUATION OBJECTIVE AND APPROACH
Our objective was to evaluate the FDIC’s role in monitoring IMB, including determining:
(1) when the FDIC became aware of problems at IMB and (2) what actions were taken by the
FDIC to mitigate those problems. To accomplish our objective, we:

•    Gained an understanding of the respective responsibilities and authority of the OTS, as the
     primary federal regulator (PFR) for IMB, and the FDIC, in its capacity as insurer of deposits
     at banks and savings associations, to understand the FDIC’s overall risk monitoring
     framework and related activities.
•    Reviewed the FDIC’s role in monitoring IMB for the 8-year period that IMB was in
     existence (2000-2008).

For reporting purposes, our discussion of the FDIC’s risk monitoring activities for IMB is
captured under three distinct timeframes. Within each phase, we assessed the FDIC’s risk
monitoring activities from two perspectives—broad and IMB-specific.

We performed our evaluation from October 2008 through April 2009 in accordance with the
Quality Standards for Inspections. Details on our objective, scope, and methodology are
provided in Appendix I. Appendix II contains a glossary of terms used in this report.



                                                            1
BACKGROUND

HISTORY OF IMB FSB

IMB was formed on July 1, 2000 as a result of a merger between SGV Bancorp, the holding
company for First Federal Savings and Loan of San Gabriel Valley, Covina, CA, and IndyMac
Bancorp. IndyMac Bancorp contributed substantially all of its assets, liabilities, and operations
to IMB, raising IMB’s total assets to nearly $5 billion overnight. Included in the contribution of
assets were mortgage backed securities, mortgage servicing rights, and loans held for sale.
Table 1 summarizes IMB’s business profile throughout its existence.

Table 1: IMB’s Business Profile
Pursued an Aggressive Growth              −   IMB pursued an aggressive growth posture from its
Posture                                       inception as an insured financial institution. Rapid growth
                                              in lending was facilitated by increasingly lax underwriting
                                              within a very competitive market, primarily southern
                                              California.
                                          −   IMB grew to become the seventh largest savings
                                              association and ninth largest servicer of mortgages in the
                                              United States.

Focused on an Originate-to-Sell           −   Originated residential loans for the purposes of sale,
Platform                                      securitization, and its own portfolio. Because IMB’s
                                              business market model was an “originate-to-sell” platform,
                                              its aggressive posture is reflected more in its originations
                                              than asset growth.
                                          −   During 2006, the bank originated $91.7 billion in loans. In
                                              the first half of 2007, the bank originated $46 billion in
                                              loans.

Relied on Alternative A Paper             −   The bank’s Alt-A loans (a type of mortgage between prime
(Alt-A) Loan Production for                   and subprime) were generally jumbo loans that were
                                              underwritten largely based on the borrower’s credit score
Growth                                        and the loan-to-value ratio. Many of these loans did not
                                              have a full verification of income or assets. These are
                                              referred to as “no doc” or “low doc” loans.

Created High-Risk Asset                   −   Concentrations included non-traditional mortgages with
Concentrations                                negative amortization potential, Alt-A mortgage loans, and
                                              geographic concentration of loans in California that were
                                              rated high- or very high-risk by several mortgage
                                              companies.

Relied on Non-Core Funding                −   To finance its operations, IMB relied heavily on non-core
                                              funding from Federal Home Loan Bank (FHLB)
                                              borrowings and brokered deposits.

Source: OIG analysis of FDIC documents.




                                                       2
IMB’s growth and profitability were fostered in part by the rapid appreciation in underlying
residential real estate values that was prevalent from 2002 through 2005. However, the rate of
appreciation began to slow in several markets during 2005, and that deceleration continued in
2006. The Department of the Treasury Office of Inspector General (Treasury IG) conducted a
material loss review of the failure of IMB, as required under Section 38(k) of the Federal Deposit
Insurance Act. 1 The Treasury IG’s report stated that the primary causes of IMB’s failure were
largely associated with its business strategy of originating and securitizing Alt-A loans on a large
scale.

More specifically, the report stated that IMB’s aggressive growth strategy, use of Alt-A and
other non-traditional loan products, insufficient underwriting, credit concentrations in residential
real estate in the California and Florida markets, and heavy reliance on costly funds borrowed
from the FHLB and brokered deposits, led to its demise when the mortgage market declined in
2007. IMB remained profitable as long as it was able to sell its loans in the secondary market.
When home prices declined in the later half of 2007 and the secondary mortgage market
collapsed, IMB was forced to hold loans it could not sell in the secondary market. A significant
level of assets on IMB’s balance sheet did not have ready market prices. Those assets were self-
valued by IMB using internal financial models. As of September 30, 2006, those self-valued
assets represented about 95 percent of core capital.

The non-core funding sources IMB relied upon increased the FDIC’s resolution costs at the time
of failure because FHLB borrowings must be repaid first, and many brokered deposits are not
transferred when the FDIC sells an institution’s assets. As of December 31, 2007, IMB had
$11.2 billion in FHLB borrowings and $5.8 billion in brokered deposits for a total of $17 billion
compared to total assets of $32.5 billion.

OTS’ RESPONSIBILITY AND AUTHORITY

The OTS was the PFR for IMB from 2000 to 2008. As the PFR, OTS was statutorily responsible
for conducting full-scope on-site examinations of IMB to assess IMB safety and soundness, and
compliance with consumer protection laws and regulations. In addition, OTS examiners monitor
the condition of thrifts through offsite analysis of regularly submitted financial data and regular
contact with thrift personnel. OTS examinations and its ongoing supervisory oversight are
tailored to the risk profile of each institution.

OTS uses the Uniform Financial Institution Rating System that has been developed jointly by the
federal banking regulators to assign each financial institution a composite rating. The composite
rating is based on the results of the on-site examination that evaluates and rates six essential
components of an institution's financial condition and operations. The component factors
address the adequacy of Capital, the quality of Assets, the capability of Management, the quality
and level of Earnings, the adequacy of Liquidity, and the Sensitivity to market risk—collectively

1
 Under Section 38(k) a loss is material if it exceeds the greater of $25 million or 2 percent of an institution’s total
assets at the time the FDIC was appointed receiver. The objectives of the IMB material loss review were to
determine why IMB’s problems resulted in a material loss to the insurance fund, review OTS’ supervision of IMB,
and make recommendations for preventing such loss in the future. The Treasury OIG report, entitled, Safety and
Soundness: Material Loss Review of IndyMac Bank, FSB, was dated February 26, 2009 (Report No. OIG-09-032).

                                                           3
known as the CAMELS ratings. Evaluations of the components take into consideration the
institution’s size and sophistication, the nature and complexity of its activities, and its risk
profile. The composite ratings range on a scale from 1 (best) to 5 (worst), as shown in Table 2.

  Table 2: CAMELS Composite Ratings
       1     Sound in every respect.
       2     Fundamentally sound.
       3     Exhibit some degree of supervisory concern in one or more of the component areas.
       4     Generally exhibit unsafe and unsound practices or conditions.
       5     Exhibit extremely unsafe and unsound practices or conditions; exhibit a critically deficient
             performance; often contain inadequate risk management practices relative to the institution’s
             size, complexity, and risk profile; and are of the greatest supervisory concern.
  Source: FDIC’s Risk Management Manual of Examination Policies.

As the PFR, OTS also has the authority to take informal and formal enforcement action against
an institution to carry out its supervisory responsibilities. Informal enforcement actions put an
institution on notice that OTS has identified problems in case formal action is needed in the
future. A formal enforcement action is both written and enforceable. Guidance exists for
determining whether to use an informal supervisory action or take a formal enforcement action.

The Treasury IG’s material loss report stated that although OTS conducted timely and regular
examinations of IMB and provided oversight through offsite monitoring, its supervision of the
thrift failed to prevent a material loss to the Deposit Insurance Fund. The Treasury IG reported
that IMB’s high-risk business strategy warranted more careful and much earlier attention. The
report further stated that OTS viewed growth and profitability as evidence that IMB management
was capable, and OTS gave IMB favorable CAMELS ratings right up to the time it failed.
Moreover, the OTS did not issue an enforcement action until June 2008, less than 2 weeks before
IMB failed.

FDIC’S RESPONSIBILITY AND AUTHORITY

The FDIC is the PFR for state non-member banks, but has the unique role of insuring deposits
for all depository institutions in the United States. In its capacity as insurer, the FDIC is
responsible for regularly monitoring and assessing the potential risks at all insured institutions,
including those for which it is not the PFR. To assess and monitor risk, the FDIC takes a two-
fold approach – (1) reliance on supervisory activities of individual institutions and (2) research
and analysis of trends and developments affecting the health of banks and thrifts broadly. For
institutions like IMB, whose PFR is another agency, the FDIC relies on the examinations
conducted by other regulators to determine a bank’s overall condition and the risks posed to the
Deposit Insurance Fund. Additionally, the FDIC, by statute, has special examination authority
and certain enforcement authority for all insured depository institutions for which it is not the
PFR. To assess risk at a broader level, the FDIC conducts a wide range of activities to monitor
and assess risk from a regional and national perspective. At the institutional level, the FDIC
monitors non-FDIC supervised institutions primarily through its Case Manager Program.




                                                       4
FDIC Risk Monitoring Activities From a Broad Perspective

The FDIC has three primary divisions to carry out its mission-related activities:

Division of Supervision and Consumer Protection (DSC). DSC conducts safety and
soundness examinations of state non-member institutions and performs risk management
activities for all insured institutions to monitor risks to the Deposit Insurance Fund. 2 DSC’s
Complex Financial Institution Program is responsible for supporting supervisory activities in
large banks (defined to be institutions with total assets of at least $10 billion). The focus of the
program is to ensure a consistent approach to large-bank supervision and risk analysis on a
national basis. The Large Bank Section synthesizes information from Large Insured Depository
Institution (LIDI) reports, aggregates data on large banks to identify trends and emerging risks,
and communicates these trends and emerging risks to FDIC senior management, the FDIC Board
of Directors, other regulators, and DSC staff.

Division of Insurance (DIR). DIR assesses risks to the insurance fund, manages the FDIC’s
Risk-Related Premium System (RRPS), conducts banking research, publishes banking data and
statistics, and analyzes policy alternatives. The division has a leading role in preparing a key set
of reports delivered to the FDIC’s Board of Directors. One of these reports known as the “Risk
Case” summarizes national economic conditions and banking industry trends, plus emerging
risks in banking. The report combines the perspectives of FDIC economists, financial and risk
analysts, examiners, and case managers working through the Risk Analysis Center (RAC).
The second key report prepared by DIR is known as the “Rate Case” that recommends the
insurance premium schedule based on analysis, including likely losses to the fund from failures
of individual institutions, expenses of resolving failing institutions, insurance fund operating
expenses, growth of insured deposits, investment income, and the effect of premiums on the
earnings and capital of insured institutions.

Division of Resolutions and Receiverships (DRR). DRR handles financial institution failures
and liquidation of failed institution assets. The FDIC proactively identifies troubled financial
institutions and begins its resolution efforts, such as valuing assets and identifying potential
purchasers of those institutions before they fail. At failure, the FDIC is appointed receiver, and
DRR is responsible for ensuring that customers have timely access to their insured deposits. As
receiver, the FDIC manages and sells the assets.

To coordinate risk monitoring activities across the divisions, the FDIC has established the
following:

Regional Risk Committees. The Regional Risk Committees review and evaluate regional
economic and banking trends and risks and determine whether any actions need to be taken in
response to those trends and risks. Comprised of senior regional executives and relevant staff,
the committees are required to meet semi-annually. Regional Risk Committee responsibilities
include:

2
  DSC also examines state non-member institutions’ compliance with consumer protection, fair lending, community
reinvestment, and other laws.

                                                       5
•   identifying and assessing existing and emerging regional economic and banking trends and
    risks that may affect insured institutions;
•   developing follow-up strategies and actions to address the identified issues;
•   allocating resources, where necessary, to implement follow-up strategies and actions;
•   preparing a Regional Risk Committee Summary Report and regional matrix for submission
    to the Risk Analysis Center (RAC);
•   conveying and receiving information regarding identified trends and risks to and from the
    National Risk Committee, FDIC divisions and offices in Washington, D.C., the RAC, other
    regions, field examiners, and other Federal and state regulators;
•   receiving and reviewing information and recommendations from the National Risk
    Committee and incorporating these into regional strategies, where appropriate.

National Risk Committee. The National Risk Committee, comprised of senior FDIC officials,
meets on a monthly basis to identify and evaluate the most significant external business risks
facing the FDIC and the banking industry. Where necessary, the committee develops a
coordinated response to these risks, including strategies for FDIC-supervised and insured
institutions. Among other things, the National Risk Committee receives the regional risk
committee reports filed from across the country.

Risk Analysis Center. The RAC is an interdivisional forum that coordinates risk identification
and prioritization among the FDIC’s three primary divisions. The RAC facilitates the flow of
communication between the National Risk Committee and the Regional Risk Committees in
several ways, including instructing the Regional Risk Committees to review certain prescribed
risk areas, and summarizing regional reports and matrices for the National Risk Committee. The
RAC Web site has a variety of risk-related information, including FDIC publications and
presentations available. The site offers guidance on topics such as concentrations in real estate
lending and interest rate risk management.

FDIC Risk Monitoring Activities from an Individual Institution Perspective

Case managers, along with senior regional management, are generally responsible for ensuring
that the level of regulatory oversight accorded to an institution is commensurate with the level of
risk it poses to the Deposit Insurance Fund. Case managers regularly monitor potential risks by
reviewing examination reports prepared by the PFR, analyzing data from quarterly institution
Call Reports, 3 and analyzing other financial and economic data from government and private
sources to monitor the financial condition of an institution. The Case Managers Procedures
Manual lists the case manager’s responsibilities as follows (see Appendix III for a full
description):

•   Directing Supervisory Strategy
•   Establishing and Maintaining a Dialogue with the Primary Regulator
•   Reviewing Examination Reports, Applications, Investigations, and Correspondence

3
  All regulated financial institutions are required to file quarterly financial information. For banks, this report is
formally known as the Reports of Condition and Income but is generally referred to as the Call Report. Thrifts file a
similar report known as the Thrift Financial Report or TFR.

                                                          6
•   Initiating and Developing Corrective Programs
•   Coordinating with Specialty Areas
•   Preparing Management Information Reports
•   Performing Offsite Monitoring and Preparing Analyses
•   Keeping Abreast of Current Economic Trends

Case managers review reports of examination conducted by other regulators to determine that
problems and risks have been identified and appropriate corrective actions are being taken. Case
managers prepare a Summary Analysis of Examination Reports (SAER) for each institution,
which is a narrative summary of the PFR’s report of examination findings.

In addition to reviewing the examination reports, in the case of large institutions, like an IMB,
case managers conduct comprehensive quarterly analyses of the risk profile and supervisory
strategies as part of the LIDI program. The purpose of the LIDI program is to provide timely,
comprehensive, and forward-looking analyses of companies with total assets of $10 billion or
more, on a consolidated entity basis. 4 Timely and complete analysis of the risk profiles of these
companies provides a proactive approach aimed at identifying and monitoring the largest risks to
the insurance fund. Case managers prepare written reports that document the analysis and risk
profile and supervisory strategies of large depository institutions. The analysis is comprised of
four major areas:

•   organizational structure and strategic focus of the company;
•   overall risk profile and financial condition of the company;
•   an identification and review of significant issues, current events, and challenges facing the
    company; and
•   the review and development of a sufficient supervisory program to address the risk issues
    facing the company.

The FDIC developed the LIDI reports and associated rankings as an additional means to measure
an institution’s financial health beyond the CAMELS ratings. LIDI reports are used to inform
FDIC senior management, the FDIC’s Board of Directors, and other regulators about risks to the
insurance fund as well as provide updates about the supervisory programs in place to respond to
those risks.

The Regional Director is responsible for assigning offsite ratings to companies in the LIDI
program. Table 3 describes the LIDI ratings from A (best) to E (worst). Combination ratings
(e.g., A/B indicate financial condition and trends contain elements of both rating bands shown).
Generally, DSC is concerned when an institution’s LIDI ranking falls to C or lower.
Appendix VI provides a more detailed description of the LIDI ratings.




4
 Companies with consolidated total assets of at least $3 billion but less than $10 billion can be added to the LIDI
Program at the discretion of the Regional Director.

                                                          7
    Table 3: LIDI Ratings
            A          −Low risk of concern regarding ultimate risk to the insurance funds.
            B          −Ordinary level of concern regarding ultimate risk to the insurance funds. Barring
                        unusual circumstances, regulatory intervention is unlikely.
           C        − More than an ordinary level of concern regarding ultimate risk to the insurance
                        funds. Despite evident weakness, probability of failure or need of FDIC financial
                        assistance in the short- to immediate-term is unlikely.
           D        − High level of concern regarding the ultimate risk to the insurance funds. There is a
                        distinct possibility of failure or need of FDIC financial assistance if problems
                        identified are not addressed in the short- to immediate-term.
           E        − Serious concerns regarding ultimate risk to the insurance funds: Organizational
                        structure, financial condition, or operating performance exhibited (or are expected
                        to exhibit in the near-term) indicate the company may not be viable.
    Source: FDIC’s Case Managers Procedures Manual.

Additionally, case managers perform offsite reviews of those institutions that appear on the
Offsite Review List (ORL). The ORL is generated each quarter after the Call Report data is
filed. 5 In general, an institution is included on the ORL because its financial ratios fall outside
FDIC-determined tolerances. Each institution on the ORL must have an offsite review. An
offsite review with a risk level of “medium” or “high” must include a narrative that focuses on
the components or elements causing the institution’s inclusion on the ORL and the reasons for
the overall level or trend of risk. The narrative should conclude with a brief description of the
planned supervisory strategy. 6 Appendix V describes the various offsite monitoring systems
used in generating the ORL.

In addition to the ORL, case managers must also review the RRPS. The RRPS is used to
determine an institution’s FDIC deposit insurance assessment rate. The Reconciliation List
identifies institutions where the CAMELS ratings are inconsistent with offsite ratios and
institutions with atypical high-risk profiles among the group of institutions in the best-rated
insurance premium category. If the Reconciliation List is triggered, a case manager must review
the appropriateness of the risk category assigned by the RRPS. 7

Based on their ongoing analysis, case managers prepare a problem bank memorandum, where
appropriate, to document the FDIC’s concerns with an institution and the corrective action in
place or to be implemented. A problem institution is defined as any insured institution that has
been assigned a composite rating of 4 or 5. Generally, a 3-rated institution is not formally
considered a “problem institution.” However, because of the potential risk to the Deposit
Insurance Fund, a problem bank memorandum is required on larger 3-rated institutions as a
means to document any concerns and plans. These ratings may result from an examination or
may be assigned based upon visitations, offsite reviews, or other interim changes in a financial
institution’s condition. The problem bank memorandum is also used to effect interim rating


5
  Generally, there is a lag between the time an institution’s financial information is received and the computation of
the FDIC ratios. Institutions have 30 days following the end of the quarter to file the Call Report. Offsite reviews
must be completed and approved 3½ months after each call report date.
6
  Narrative comments are recorded in Virtual Supervisory Information on the Net (ViSION), which is an internal
FDIC bank supervision tracking and reporting database.
7
  The Reconciliation List was a semi-annual review until June 6, 2007, at which time it became a quarterly review.

                                                           8
changes on the FDIC’s systems or if a composite rating disagreement with the primary regulator
cannot be resolved.

Special Examination Authority

Section 10(b)(3) of the FDI Act provides the FDIC special examination authority (also known as
back-up authority) to make any special examination of any insured depository whenever the
FDIC Board of Directors determines a special examination of any such depository institution is
necessary to determine the condition of the institution for insurance purposes. In January 2002,
the FDIC’s Board of Directors approved an interagency agreement that established a set of
principles related to use of special examination authority for those institutions that present
“heightened risk” to the Deposit Insurance Fund and delegated its authority to DSC. 8 The term
“heightened risk” is defined under statute as an institution having a composite rating of 3, 4, or 5
or that is undercapitalized as defined under Prompt Corrective Action rules. 9 Further, the FDIC
may request permission from the PFR to participate in an examination for an institution that does
not meet the heightened risk definition but exhibits
material deteriorating conditions or other adverse             Principles That Underlie Use of
                                                                     Back-up Authority
developments that may result in the institution
being troubled in the near-term.
                                                             −   All back-up examination activities will be
Procedurally, a case manager prepares a                   conducted in a manner to minimize costs to
memorandum documenting the basis for a back-up            the industry, regulatory burden, and
examination request and submits the request to the        duplication of effort.
FDIC Regional Director or Deputy Regional             −   FDIC staff will meet and coordinate with
Director who may accept or reject the request. If         the PFR before engaging in any back-up
                                                          examination activity.
the request is based on heightened risk, the
                                                      − To the fullest extent possible, back-up
Regional Director formally notifies the PFR               examination activities should be conducted
counterpart by sending a letter stating the FDIC          concurrently with the PFRs’ regularly
would like to participate in the examination. If the      scheduled examination.
request is not based on heightened risk, the process − The FDIC will not prepare a separate report
is more in the manner of a request where the FDIC         of examination, or other similar report to
                                                          bank management, except where
Regional Director asks the PFR counterpart                enforcement action by the FDIC is
whether the PFR would object to the FDIC’s                anticipated.
participation. Implicit in both of these requests is
the principle of effective and efficient supervision. Source: FDIC’s Case Managers Procedures
On a quarterly basis, the FDIC regional offices       Manual.
report back-up examination activity to the FDIC
DSC Director in Washington. That quarterly report includes back-up examination requests that
have been completed or that are in process. The report does not track recommendations for
back-up examination requests that are not approved by FDIC regional management.

In the event that the FDIC and the PFR disagree as to the appropriateness of the FDIC’s
participation, the respective agency representatives to the Federal Financial Institutions

8
  January 29, 2002 Interagency Agreement, “Coordination of Expanded Supervisory Information Sharing and
Special Examinations.”
9
  12 U.S.C. §1820(b)(3).

                                                      9
Examination Council (FFIEC) 10 will determine whether FDIC participation is appropriate. In
the event the agency representatives cannot agree, the FDIC Chairman and the principal of the
PFR will make the determination.

Enforcement Action Authority for Institutions Not Supervised by the FDIC

The FDIC is authorized under Section 8(t) of the Federal Deposit Insurance Act to engage
in back-up enforcement action. 11 In this capacity, the FDIC generally has the same powers with
respect to any insured depository institution and its affiliates as the appropriate Federal banking
agency has with respect to the institution and its affiliates. The FDIC may recommend in
writing that an institution's PFR take a range of enforcement actions authorized under the FDI
Act with respect to any insured depository institution or any institution-affiliated party, based on
an examination by the FDIC or the PFR. The recommendation must be accompanied by a
written explanation of the concerns giving rise to the recommendation. If, within 60 days of
such recommendation, the institution's PFR does not take the enforcement action recommended
by the FDIC or provide an acceptable plan for responding to the concerns, the FDIC may petition
the FDIC Board of Directors for such enforcement action to be taken. Only after
Board approval may the FDIC take action in its capacity as insurer. However, the composition
of the FDIC Board, which includes the Director of OTS and the Comptroller of the
Currency, essentially puts the enforcement decision back into the hands of the PFR that was
reluctant to take action in the first place. The statute provides for a similar exercise of the
FDIC's authority in exigent circumstances without regard to the 60-day time period; however,
such circumstances also require approval of the FDIC Board of Directors prior to any action
being taken.

Deposit Insurance Assessments

Prior to the passage of the Federal Deposit Insurance Reform Act of 2005 and the Federal
Deposit Insurance Reform Act Conforming Amendments of 2005 (collectively referred to as the
Reform Act) the FDIC was statutorily required to set assessments semiannually. Specifically,
the FDIC Improvement Act of 1991 (FDICIA) required that the FDIC establish a risk-based
assessment system. To implement that requirement, the FDIC adopted by regulation a system
that placed institutions into risk categories based on two criteria: (1) capital levels and
(2) supervisory ratings, as illustrated in Table 4. In practice, the subgroup evaluations were
generally based on an institution’s composite CAMELS rating. Generally, institutions with a
CAMELS rating of 1 or 2 were put into supervisory subgroup A. Supervisory subgroup B
generally included institutions with a CAMELS composite rating of 3; and supervisory subgroup
C generally included institutions with CAMELS composite ratings of 4 or 5.

10
   According to the FFIEC Web site, the Council is a formal interagency body empowered to prescribe uniform
principles, standards, and report forms for the federal examination of financial institutions by the Board of
Governors of the Federal Reserve System (FRB), FDIC, National Credit Union Administration (NCUA), Office of
the Comptroller of the Currency (OCC), and OTS, and to make recommendations to promote uniformity in the
supervision of financial institutions. In 2006, the State Liaison Committee (SLC) was added to the Council as a
voting member. The SLC includes representatives from the Conference of State Bank Supervisors (CSBS), the
American Council of State Savings Supervisors (ACSSS), and the National Association of State Credit Union
Supervisors (NASCUS).
11
   12 U.S.C. §1818(t).

                                                       10
Table 4: Risk-Based Assessment Matrix Effective Until January 2007
                                                          Supervisory Group
    Capital Group                       A                           B                           C
1. Well Capitalized                     1A                         1B                          1C
2. Adequately Capitalized               2A                         2B                          2C
3. Undercapitalized                     3A                         3B                          3C
Source: 12 CFR Part 327, Final Rule Supplemental Information.

A risk-based system is defined as one based on an institution’s probability of causing a loss to
the Deposit Insurance Fund due to the composition and concentration of the institution’s assets
and liabilities, the amount of loss given failure, and the revenue needs of the fund. Provisions in
the Reform Act continued to require that the assessment system be risk-based but allowed the
FDIC to define risk broadly. Under the rule adopted by the FDIC to implement the Reform Act,
deposit insurance assessments are collected after each quarter ends—which was intended to
allow for consideration of more current information than under the prior rule. Effective
January 1, 2007, the nine risk classifications in the risk-based assessment matrix were
consolidated into four risk categories. However, the implementing regulation continued to use
capital ratios and supervisory ratings to determine an institution’s risk category. Table 5 shows
the relationship between the old nine-cell matrix and the new risk categories.

Table 5: New Risk Categories Effective January 2007
                                                          Supervisory Group
    Capital Group                       A                           B                           C
1. Well Capitalized                     I
2. Adequately Capitalized                                 II                                    III
3. Undercapitalized                                       III                                   IV
Source: FDIC’s Website – Deposit Insurance Assessments – Key Provisions Pertaining to Risk-based Assessments.

The amount each institution is assessed is based upon factors that include the amount of the
institution’s domestic deposits as well as the degree of risk the institution poses to the insurance
fund. For large institutions (generally those institutions with $10 billion or more in assets) that
have long-term debt issuer ratings, base assessment rates are determined from weighted average
CAMELS component ratings and long-term debt issuer ratings. For larger Risk Category I
institutions, additional risk factors will be considered to determine if the assessment rates should
be adjusted up to a ½ basis point higher or lower. This additional information includes market
data, financial performance measures, considerations of the ability to withstand financial stress,
and loss severity indicators.




                                                     11
RESULTS IN BRIEF
In its role as insurer, the FDIC identified and monitored the risks that IMB presented to the
Deposit Insurance Fund primarily through two means: (1) broad risk monitoring activities
conducted by DIR and FDIC risk committees and (2) analysis of IMB-specific data.
Additionally, the FDIC participated in its back-up examination capacity in on-site IMB
examinations with the OTS in 2001, 2002, 2003, and again shortly before IMB failed in 2008.

The FDIC completed various reports and analyses of IMB, including SAERS, quarterly LIDI
reports, and required reconciliations generated from the FDIC’s offsite monitoring systems and
RRPS, and identified risks associated with IMB’s operations. The FDIC’s risk committees’
analyses also raised broad concerns about the impact that an economic slowdown could have on
an institution like IMB that was heavily involved in securitizations and subprime lending.
Nevertheless, FDIC officials consistently concluded that despite its high-risk profile, IMB posed
an ordinary or slightly more than ordinary level of risk to the insurance fund until August 2007
when the FDIC began to understand the implications that the historic collapse of the credit
market and housing slowdown could have on IMB’s future viability.

Our evaluation of the FDIC role in monitoring IMB can be broken into three periods as follows:

Phase 1: 2001 through 2003

In the first 3 years of IMB operations, the FDIC identified a number of risks at IMB, especially
with respect to origination and securitization of mortgages. To better understand the risks IMB
posed to the Deposit Insurance Fund, the FDIC exercised its back-up examination authority in
2001, 2002, and 2003. The FDIC’s use of back-up examination authority was supported by
OTS. Significantly, during the 2001 examination, the OTS and the FDIC disagreed on IMB’s
composite CAMELS rating. The FDIC concluded that IMB should be assigned a 3 rating while
OTS proposed a 2 rating. Ultimately, after the disagreement was elevated to the FDIC and OTS
headquarters level, IMB received a composite 3 rating.

Phase 2: 2004 through Mid-2007

During this period, FDIC monitoring tools identified potential risks because of IMB’s significant
growth. Consistent with interagency guidelines, but counter to recommendations made by the
FDIC’s SFRO staff that were supported by the OTS, the DSC SF Regional Director determined
in 2004 that continuation of back-up examination authority was not warranted. Back-up
examination authority was not formally requested again until late 2007. FDIC analysis during
this period relied on OTS on-site examination results, which indicated that, despite some
concerns, IMB was fundamentally sound and IMB earnings adequately mitigated any potential
risks. Importantly, the continuity at the case manager position was not consistent during this
phase. Three different case managers were assigned to monitor IMB during an 18-month period.
Although regional officials tried to ensure a smooth transition among the case managers, a
November 2007 DSC internal review report stated that achieving continuity of case managers is
important because the case manager builds the relationship with the institution and the PFR, and
develops a robust understanding of each company’s operations, risks, and business lines.

                                               12
Phase 3: Mid-2007 through Mid-2008

The liquidity stress suffered by the nation’s largest mortgage lender, Countrywide, in mid-2007
served as a catalyst for the FDIC to reassess IMB and other financial institutions with similar
originate-to-sell business models. 12 When the FDIC noted problems with IMB in the third
quarter of 2007, the FDIC exercised its back-up examination authority and downgraded its LIDI
rating of IMB in 2007 and 2008. Changes to the LIDI rating were reflected in IMB’s insurance
premium assessment beginning in 2008. Further, although there was a noticeable deterioration
in IMB in the fourth quarter of 2007 and into 2008, the FDIC did not suggest that OTS take, or
itself take, any enforcement action against IMB. Notably, the FDIC’s analysis and conclusions
of IMB’s first quarter 2008 financial data were affected by a capital contribution adjustment that
was permitted by OTS. Had the capital contribution not been reflected in the first quarter data:
(1) IMB would have been required to request a waiver from the FDIC to continue to receive
brokered deposits and (2) the value of assets pledged as collateral to secure FHLB advances
would have been reduced, thereby limiting the amount of FHLB advances and possibly the cost
of IMB’s failure.

Appendix IV presents a more detailed timeline of significant events relevant to IMB. The
Evaluation Results also describe within each phase the FDIC’s broad and IMB-specific risk
monitoring activities. Because this evaluation focused on the FDIC’s role in monitoring one
institution, we are not in a position to reach conclusions or make recommendations on the design
and implementation of the FDIC’s risk monitoring activities, but we do offer some matters for
management’s consideration as it evaluates the lessons learned from recent banking industry
events.




12
   Countrywide Financial Corporation and its subsidiaries were engaged in mortgage lending and other real estate
finance-related businesses, including mortgage banking, banking and mortgage warehouse lending, dealing in
securities, and insurance underwriting. In July 2007, Countrywide was the nation’s largest mortgage lender with
$200 billion in assets, 62,000 employees and 900 offices.


                                                        13
EVALUATION RESULTS

Phase 1: 2001 through 2003 - FDIC Actively Engaged in Monitoring IMB
During this phase, the rate of IMB’s growth, its significant concentrations in subprime and Alt-A
mortgages, and its reliance on securitization and non-core deposits as a source of funding led to
the FDIC’s participation with OTS in on-site examinations. Indeed, FDIC examiners spent 8,096
hours in a back-up capacity at IMB during that 3-year period, a time commitment that was far
greater than the hours spent at any
other FDIC-insured institution in a        Table 6: Financial and Supervisory Data for
back-up role during that period. In        IMB – 2001 to 2003
addition, FDIC analysis at the                                        2001          2002         2003
national and regional level had              IMB Assets               $7.4          $9.5         $13.1
identified concerns related to levels of     ($ Billions)
consumer debt, trends in the housing         IMB Net Income           $119          $143         $180
                                             ($ Millions)
market, subprime mortgages, and              OTS CAMELS                 3             2             2
securitizations, which were areas            Composite Rating
relevant to front-line supervision of        FDIC LIDI Rating           *             *           B/C
                                             FDIC Insurance            1A            1A            1A
IMB. Table 6 provides an overview            Premium Rating
of IMB’s financial condition and             Source: OIG analysis of FDIC documents.
corresponding supervisory ratings,           *FDIC did not use the LIDI rating system for the 2001
and shows that IMB assets nearly              and 2002 reports.
doubled during this period and IMB
was profitable. Supervisory ratings
assigned by the OTS generally
indicated that IMB was fundamentally sound.

FDIC RISK MONITORING ACTIVITIES – BROAD PERSPECTIVE

Between 2001 and 2003, 13 DIR risk assessments and quarterly banking profiles identified
concerns about a number of issues, including:

•    consumers’ ever-increasing debt load, the expansion of adjustable rate mortgages, and a
     potential housing bubble;
•    subprime and high loan-to-value (HLTV) lending as a risk in the event that the United States
     economy suffered a significant recession; and
•    pricing and modeling charge-off risk with respect to the originate-to-sell model of the
     mortgage business.

In January 2002, DIR noted that non-recession-tested lending programs such as subprime
lending and HLTV lending may pose the biggest threat to consumer loan portfolio credit quality
in a slowing economy. In May 2003, DIR reported that there was a concern about the extent to

13
  The regional risk committees were in existence in this period but the committees were not formally chartered until
January 2003 and the regional risk committee reports were not standardized; accordingly, we are not providing
Regional Risk Committee information for this phase.

                                                        14
which lenders’ scoring models under-predicted losses during the 2001 recession. DIR noted that
many subprime lenders experienced loss rates higher than their models predicted and that some
consumer lending business models had been found to be inadequate, including those that relied
on the securitization market for funding and were, therefore, sensitive to market pricing changes.

FDIC RISK MONITORING ACTIVITIES – IMB-SPECIFIC

During this first phase, the FDIC was actively engaged in supervising IMB because of IMB’s
risk profile. With a minor exception related to a quarterly LIDI report in 2001, the case manager
completed required analysis related to IMB, and the completed LIDI reports identified a number
of risks. Table 7 provides an overview of the FDIC’s monitoring activities for IMB and
illustrates when the FDIC’s offsite monitoring tools flagged IMB for review.

LIDI Reporting and Offsite Monitoring          Table 7: Snapshot of the FDIC’s Monitoring and
                                               Supervision Activities of IMB – 2001 to 2003
During this time period, one of the
quarterly LIDI reports for 2001 was                                            2001    2002 2003
missing, but as discussed later, the impact   FDIC Completed Required            No      9    9
                                              Reports (including LIDI)
of not completing the LIDI was lessened       FDIC Problem bank                 9/21   4/05
because the FDIC was at IMB working           memorandum
with OTS in a back-up examination             SAER Completed                     9       9    9
capacity. The LIDI reports prepared           Quarterly  (Qtr) ORL                          2 Qtrs
                                              Triggered
during this phase indicated that IMB had      Reconciliation List Triggered     7/01         1/01
less than adequate capital to support its                                                    7/01
high-risk profile and aggressive growth,      Backup Exam Requested              9       9    9
excessive levels of underwriting and          Source:  OIG   analysis of FDIC documents.
documentation deficiencies, high levels of subjectively valued assets, subprime lending, and
reliance on non-core FHLB borrowing to finance its operations. One of the LIDI reports
prepared in the third quarter of 2001 was prophetic in the assessment of IMB and stated; “[a]n
economic recession could prove very challenging for the company given their short operating
history … and untested products in an economic downturn.”

The FDIC’s SFRO also issued two problem bank memoranda. As discussed in the Background
section, a problem bank memorandum can be issued for reasons beyond the identification of a
problem institution (defined to be assigned a composite rating of 4 or 5). In the case of IMB, the
problem bank memorandum issued September 21, 2001 communicated to senior FDIC
management the nature of the rating disagreement between the FDIC and OTS based on the 2001
on-site examination work done by both OTS and the FDIC. The second memorandum, dated
April 5, 2002, described the additional work performed by the FDIC at IMB in 2001 for high-
risk areas that were not fully covered in the examination, namely, asset quality for subprime and
construction loans, appraisals, underwriting, and securitization.

IMB also appeared on the ORL in the third and fourth quarter of 2003 because IMB exceeded
multiple risk thresholds, including those related to asset growth and the degree of reliance on
volatile funding sources, such as securitizations, brokered deposits, and FHLB borrowings.
However, the case manager analysis noted that the September 2003 OTS examination, in which

                                                 15
the FDIC participated, had determined that the bank’s liquidity and funds management was
properly managed, monitored, and controlled.

Further, IMB appeared on the RRPS reconciliation list for three semiannual reporting periods
during this phase because of IMB’s significant growth; credit exposure from assets sold and
securitized that exceeded the FDIC’s threshold of 20 percent of tier 1 capital; and subprime loans
that exceeded the FDIC’s threshold of 25 percent of tier 1 capital. In addressing IMB’s
appearance on the Reconciliation List and the associated risk, the FDIC case manager reviewed
and considered IMB’s Uniform Thrift Performance Report, Securities and Exchange
Commission filings, OTS reports of examination, FDIC offsite review information, an FDIC
visitation memorandum, and correspondence and concluded that the supervisory subgroup
assignment of “A” was appropriate. Group “A” is defined to consist of financially sound
institutions with only a few minor weaknesses and generally corresponds to the PFR’s composite
rating of 1 or 2.

The FDIC’s Participation in On-site Examinations

Collectively, the problems noted by FDIC monitoring tools prompted the FDIC to request
back-up examination authority for IMB in 2001, 2002, and 2003. In the 2001 examination, the
FDIC and OTS disagreed on the composite CAMELS rating. Specifically, OTS planned to
assign IMB a CAMELS composite rating of 2; however, the FDIC thought IMB should receive a
3 rating. After elevating the ratings disagreement to the headquarters level of the FDIC and the
OTS, the OTS agreed with the FDIC and assigned a “3” CAMELS composite rating to IMB. In
the July 2002 examination, the OTS and the FDIC found IMB to be fundamentally sound and
agreed on the assignment of a 2 CAMELS composite rating. However, in that examination the
OTS noted continued problems with risk management. In the September 2003 examination, the
OTS and the FDIC agreed to assign IMB a CAMELS composite 2 rating but continued to note
risk management concerns especially with the valuation of variable cash flow instruments, which
include mortgage servicing rights and residual interests in securities. Each of the three reports of
examination included matters for IMB management’s attention and corrective action but did not
recommend any enforcement actions against IMB.

The FDIC’s participation on these examinations required that a number of FDIC and OTS capital
markets experts review models developed by IMB that assigned values to certain balance sheet
assets. In fact, documents we reviewed indicated that the OTS specifically requested the FDIC’s
assistance in the examination of IMB in order to obtain FDIC capital markets specialists’
expertise in the valuation of mortgage servicing rights and mortgage-backed securities. The
FDIC’s back-up examinations during this period were significant for several reasons.

•   FDIC regional capital markets personnel were able to review the assumptions used in the
    valuation models that IMB used to determine the value of assets on its balance sheet that had
    no established market price. FDIC regional capital markets personnel noted that on-site
    review of the models was significant because that was the only way to review and understand
    the underlying assumptions in the valuation models.




                                                16
•   The FDIC and OTS developed a close working relationship during this timeframe, and FDIC
    capital markets personnel supplemented the limited availability of OTS capital markets
    personnel. Emails and letters from the OTS regional director to the FDIC regional director
    note the importance of the FDIC’s capital market assistance and the OTS’ appreciation of
    that assistance.

Phase 2: 2004 through Mid-2007 – The FDIC Did Not Participate in On-site
Examinations
Significantly, during this period, IMB continued to rely heavily on volatile funding sources such
as brokered deposits and FHLB advances to fund its growth. The FDIC’s analysis of banking
and economic trends at a national and regional level continued to identify risks associated with
areas that were relevant to IMB operations. In 2004, the FDIC’s SFRO Regional Director
determined that continued participation in the on-site examination was not warranted. The
Regional Director’s decision was consistent with the interagency principles related to the use of
back-up examination authority. However, this position ran counter to recommendations made by
the case manager for IMB and the capital markets specialist that were supported by the OTS
Regional Director to continue participating in the on-site examinations. Consequently, the
FDIC’s assessment of IMB shifted to reliance on the results of OTS’ on-site examinations and
the FDIC’s offsite monitoring systems. Table 8 provides an overview of IMB’s financial
condition and corresponding supervisory ratings for this phase.

             Table 8: Financial and Supervisory Data for IMB – 2004 to mid-2007
                                                                       1st Qtr.    2nd Qtr.
                                        2004           2005    2006     2007        2007
         IMB Assets                    $15.6           $20.3   $28.7     $29         31.3
         ($ Billions)
         IMB Net Income                 $183           $307    $357      $59         $50
         ($ Millions)
         OTS CAMELS                      2              2       2         2           2
         Composite Rating
         FDIC LIDI Rating               B/C            B/C     B/C      B/C       Incomplete
         FDIC Insurance Premium         1A             1A      1A       1A            1A
         Rating
             Source: OIG analysis of FDIC documents.

While assets nearly doubled during this period and IMB remained profitable, the data suggests
the growth rate was beginning to slow down by 2007, and income was starting to decline. OTS’
on-site CAMELS rating and the FDIC’s offsite ratings consistently indicated that IMB was
fundamentally sound and posed an ordinary to more than ordinary level of risk to the Deposit
Insurance Fund.




                                                  17
FDIC RISK MONITORING ACTIVITIES – BROAD PERSPECTIVE

During this period, FDIC regional and national risk management committees and offices
reported concerns with respect to subprime and non-traditional lending. For example, the SFRO
Regional Risk Committee and the FDIC’s National Risk Committee reported an escalated level
of concern related to prime and subprime lending and large bank risks, as shown in Table 9.

Table 9: Excerpts from Selected SFRO Risk Committee Reports*
       Risk Issue                Oct 2005           April 2006         Sept 2006         March 2007
Prime Lending                    Significant           Moderate            Moderate        Significant
Subprime Lending                   Limited              Limited            Limited         Significant
Large Bank Risks                  Moderate            Significant         Significant      Significant
Source: OIG review of DSC risk management reports.
*Note: The table presents color-coded information from the Risk Committee Reports about the FDIC’s level of
concern with a particular issue with yellow, orange, and red corresponding to a medium, elevated, and high level of
concern, respectively. The table also presents an assessment of the exposure (limited, moderate, and significant)
that measures the likely impact of an adverse risk area on the region’s banking industry.

The SFRO regional risk committee reports recommended supervisory strategies to address
identified risks, ranging from issuing publications and conducting research on relevant topics to
prioritizing examinations and conducting offsite monitoring. In some instances, the reports also
recommended large bank policy changes or additional training for examiners related to prime
and subprime lending.

Also during this phase, DIR’s semiannual rate cases began raising concerns about a potential
housing bubble and signs of a housing slowdown. Specifically, in November 2006, DIR
reported emerging signs of potential credit distress among holders of subprime ARMs and noted
that there was a high degree of leverage on the part of households and an unprecedented reliance
on non-traditional mortgage products that could amplify the adverse effects of a housing
slowdown. DIR also identified increasing risk in the derivative markets and the complex and
opaque positions taken by the fast-growing hedge fund sector and the ability of the financial
markets to absorb the shock of disruption or collapse in this sector. However, in
November 2006, DIR reported that the financial health of the banking industry remained very
good, earnings were at record levels, capital was historically high, and loan performance
remained at record strong levels.

FDIC RISK MONITORING ACTIVITIES – IMB-SPECIFIC

During this phase, the SFRO reassigned IMB among a number of case managers as a result of
internal reorganizations and individual retirements. The case managers completed required
analyses related to IMB, and LIDI reports continued to identify risks but concluded based on
OTS satisfactory examination results that risks were sufficiently mitigated and that the FDIC
could continue to monitor IMB offsite. Table 10 provides an overview of the FDIC’s monitoring
activities for IMB and illustrates when the FDIC’s offsite monitoring tools flagged IMB for
review.



                                                        18
FDIC Offsite Analysis of IMB

The LIDI reports consistently note that IMB had continued weaknesses in control over its self-
valued assets and that IMB's
credit risk for subprime and Alt-A Table 10: Snapshot of the FDIC’s Monitoring and
mortgages was higher than             Supervision Activities of IMB – 2004 to mid-2007
                                                                                       1st  2nd
traditional thrifts. The fourth                                  2004    2005   2006 Qtr.  Qtr.
quarter 2005 LIDI report began to                                                     2007 2007
note that the pace of mortgage          FDIC Completed its         9       9     9     9    No
originations was forecasted to          Required Reports
                                        FDIC Problem Bank
decrease. Despite these concerns,       Memorandum
the case managers’ recommended          SAER Completed             9       9     n/a   9    n/a
supervisory strategy was to             Quarterly (Qtr) ORL      3 Qtrs  2 Qtrs   2
                                        Triggered                               Qtrs
continue periodic discussions
with OTS and monitor IMB                Reconciliation List       1/01    1/01  1/01
                                        Triggered                 7/01    7/01
through the FDIC’s Offsite              Back-up Examination
Review Program.                         Requested
The case managers completed           Source: OIG Analysis of FDIC documents.
quarterly LIDI reviews, as
required, consistently rating IMB a “B/C” signifying that while the likelihood of near-term
regulatory intervention was unlikely, the institution was more susceptible to adverse events and
that regulatory intervention may be required under stress conditions.

Although the FDIC did not participate in the on-site examinations, FDIC case managers
completed SAERs of OTS’ three safety and soundness reports of examination from 2004 to the
second quarter of 2007. Each of the OTS reports of examination consistently stated that the OTS
found IMB to be fundamentally sound and rated IMB a CAMELS composite 2. The OTS’
primary concern at IMB during 2004 was improving and enhancing risk management and
reporting for mortgage servicing rights and residual interest securities. For 2005, the OTS
recommended minor policy and practice enhancements, including building out its market risk
framework throughout the bank’s business units. Finally, the 2007 examination cited problems
with IMB’s internal controls for its Conduit Division that purchased pools of mortgage loans.
During this period, all three OTS reports of examination included corrective actions for IMB
management’s attention but did not recommend formal or informal enforcement actions.

Significantly, the Treasury IG’s material loss review noted a number of instances where the OTS
did not investigate known underwriting problems, failed to ensure that problems with appraisals
were corrected, and mistakenly determined that IMB’s growth and profitability showed IMB’s
management was capable of mitigating known risks. Further, as described in more detail below,
the FDIC case managers who directed the FDIC’s supervisory strategy for IMB may not have
fully understood risk associated with IMB, as their tenure on IMB ranged from 2 to 12 months
during this period.

IMB’s consistent and significant growth triggered multiple offsite monitoring systems, requiring
case managers to perform seven quarterly offsite reviews of IMB during 2004, 2005, and 2006.
In particular, IMB triggered:

                                               19
•   the Growth Monitoring System (GMS), which identifies institutions with asset growth in the
    98th to 99th percentile range of peer institutions, and
•   the FDIC’s Real Estate Stress Test (REST) threshold, which models the impact of a regional
    recession on a financial institution’s real estate portfolio.

FDIC case manager comments in DSC’s Virtual Supervisory Information on the Net (ViSION)
system, documenting the results of the offsite reviews, presented an explanation of the factors
and growth rates requiring the offsite review and noted IMB’s use of higher risk funding sources,
such as FHLB advances. The ORL comments generally noted the fact that OTS examinations
assigned IMB a 2 CAMELS composite rating and, accordingly, case managers recommended
continuing to monitor IMB through the offsite and LIDI programs. IMB also continued to
appear on the FDIC’s Quarterly Lending Alert (QLA) report during this phase because the level
of subprime loans exceeded 25 percent of tier 1 capital. While IMB was not highlighted as one
of the top 10 subprime lenders, IMB’s ratio of subprime loans to tier 1 capital was consistently in
the 50-percent range during this phase. The QLA is a DSC internal reporting mechanism used to
identify those insured institutions engaged in lending activities that inherently pose an increased
risk to the institutions, and thereby, the insurance fund.

As discussed earlier, the case managers           Table 11: Tenure of IMB Case Managers
play a critical role in assessing the risk an      Case        Dates Assigned to IMB       No. of
institution poses to the Deposit Insurance        Manager                                  Months
Fund. The FDIC assigned five individual              1          09/16/2000 to 09/27/2005       60
case managers to monitor IMB from 2004               2          09/27/2005 to 01/25/2006        4
to mid-2007 as illustrated in Table 11.              3          01/25/2006 to 03/28/2006        2
These changes resulted from regional                 4           03/28/2006 to 3/06/2007       12
office reorganizations and workload                  5          03/06/2007 to 07/11/2008       16
imbalances where a case manager had too           Source: OIG review of FDIC ViSION documents.
many institutions in his/her portfolio. In
some instances, the case managers
monitored IMB for only a few months.

We identified no FDIC guidance addressing the transition of oversight between existing and new
case managers; therefore, the preparation for such a transition is dependent on the individuals
involved. One of the case managers stated that at the time of the transfer of IMB monitoring
duties, he had limited time to come up to speed on IMB because of his 25-30 institution portfolio
and a high-profile case that required significant time. DSC acknowledged the SFRO had
experienced reorganizations and management changes. For example, the SFRO had four
Regional Directors during the period 2001 through 2008. DSC SFRO officials indicated that the
region worked to ensure continuity during case manager changes. In at least one case, the fourth
IMB case manager continued to oversee IMB while the fifth case manager became familiar with
the bank to ensure a smooth transition. DSC noted that it is customary for case managers to
meet when cases are being transferred to ensure continuity and determine how to complete work
in process.




                                                20
According to an FDIC Internal Review Report of the SFRO issued in September 2007, this lack
of continuity in case managers was not isolated to IMB. The report notes that four institutions
with elevated risk profiles for subprime and non-traditional mortgages experienced continual
rotation of case managers, primarily because of workloads, retirements, and reassignments. 14
Further, the report concluded that it would be advisable for DSC to seek continuity of case
managers because the case manager builds the relationship with the bank and the PFR, and
develops a robust understanding of each company’s operations, risks, and business lines. There
is a risk with multiple changes in assignment of IMB monitoring that case managers may not
have had a full understanding of the extent of underlying risks at IMB.

No Participation in OTS On-site Examinations:

In 2004, in response to the risks identified by the FDIC monitoring tool information, both the
FDIC case manager and regional capital markets expert requested continued back-up
examination authority for IMB, and that request was supported by the OTS Regional Director in
a letter to the FDIC SFRO Regional Director.
                                                          Excerpts from Capital Markets Specialist’s Request
However, the FDIC SFRO Regional Director                         to Continue Back-up Examinations
determined that the need to participate with
OTS on the on-site 2004 examination was not               In a July 30, 2004 email to the FDIC SFRO Regional
warranted. Documents we reviewed indicated                Director requesting back-up examination authority, the
that the Regional Director did not believe that           FDIC capital markets specialist listed four reasons to be
the FDIC had valid business reasons to                    onsite at IMB:
exercise its back-up examination authority.
                                                          • significant earnings decline due to reversal of
We were unable to interview the regional                    aggressive accounting,
director in place in 2004 because that                    • large hedging loss in 2Q2004,
individual has since retired from the FDIC.               • increasing credit risk profile, and
                                                          • IMB’s purchase of Financial Freedom, a reverse
Regional FDIC officials told us that the                    mortgage lending subsidiary.
Regional Director denied their request
                                                   He concluded his e-mail stating “I think these are four
because, consistent with the underlying            valid reasons for engaging in backup examination
requirements for back-up examinations,             activity, particularly since the OTS has requested and
CAMELS composite 2-rated institutions such         begged for our capital markets expertise on site. In my
as IMB were generally not considered               humble opinion, this institution, despite the CAMELS
candidates for back-up examination. Further,       rating, poses much more risk to the FDIC insurance fund
                                                   than [Bank x], where we are preparing to engage in
at the time, there was concern that the FDIC       backup activity ([Bank x] has $10 million in insured
was effectively subsidizing the OTS team by        deposits).”
providing personnel for OTS examinations.
FDIC Headquarters personnel in Washington
were unaware of the 2004 request and denial of back-up authority for IMB because the FDIC
only requires the reporting of approved requests; denials of back-up examination requests are not
reported to FDIC headquarters.

The SFRO officials we talked to stated that this decision impacted the FDIC in two ways.

14
  The four institutions included IMB; Countrywide, Federal Savings Bank; Downey Savings and Loan, F.A.; and
one other open institution.

                                                     21
•   First, the FDIC “lost its eyes and ears” at IMB, especially with respect to the review of
    models that IMB used to value its assets during a period of rapid growth. Asset valuation
    was an important issue at IMB because a large portion of IMB’s assets did not have a market
    price and, therefore, were dependent on IMB’s models to determine their value. Because the
    Corporation did not participate in the examinations from 2004-2007, the FDIC did not have a
    capital markets specialist on-site to review IMB models.

•   Second, the working relationship the FDIC had established with OTS changed. The OTS no
    longer requested FDIC capital markets assistance, and communication between FDIC case
    managers and OTS was less frequent.

There is one indication in an April 26, 2007 Regional Capital Markets Exposure Report that the
case manager assigned to IMB highly recommended exercising back-up examination authority
for the next OTS examination starting in January 2008. FDIC regional office personnel made a
formal request for back-up examination authority in November 2007.

Phase 3: Mid-2007 through Mid-2008 - FDIC Resumes On-Site Presence and
Evaluates IMB’s Viability
During this phase, IMB’s asset growth stalled, and the bank             Countrywide Problems
                                                                           Become Public
experienced significant quarterly losses. The FDIC became
increasingly more engaged in monitoring the condition of the       On August 9, 2007, Countrywide
bank. Additionally, in mid-2007, credit ratings agencies took      issued a press release stating that
historical downgrade action on the entire sector of mortgage-      market disruptions could affect its
backed securities after an increasing number of subprime           earnings and financial condition.
                                                                   Countrywide indicated that it was
borrowers began to default on their loans. Those downgrades
                                                                   unable to sell its private label
effectively shut down the market for mortgage-backed               mortgage-backed securities and
securities and disrupted the originate-to-sell business models,    was suffering a liquidity crisis that
leaving companies with unexpected assets on their balance          required it to draw down an $11.5
sheets that they could not sell.                                   billion line of credit from 40 banks
                                                                   and receive a $2 billion
                                                                   investment from Bank of America.
IMB and other large institutions, like Countrywide, relied on
the mortgage origination and securitization pipeline to finance
their operations, and the tumult in the debt markets critically impacted Countrywide’s ability to
secure funding. The liquidity events suffered by Countrywide were relatively sudden and there
was concern that Countrywide could fail. FDIC officials stated that Countrywide was a catalyst
for FDIC management to identify and concentrate additional supervisory efforts on similarly-
situated financial institutions, including IMB. After identifying IMB as having risks similar to
Countrywide, the FDIC took a number of specific actions to increase its monitoring of IMB,
including resuming an on-site presence at IMB and developing and applying a capital needs
model to assess IMB’s viability as a going concern.




                                                22
                                                   Table 12: Financial and Supervisory Data for IMB –
However, the FDIC did not lower                    Mid-2007 to mid-2008
                                                                         3rd Qtr     4th Qtr    1st Qtr    2nd Qtr
IMB’s deposit insurance premium                                           2007        2007       2008       2008
rating until 2008 nor did the FDIC                  IMB Assets            $33.5      $32.5          $32     $30.7
request that the OTS take any                       ($ Billions)
enforcement action against IMB or                   IMB Net Income        $(183)     $(491)     $(168)       n/a
pursue its own enforcement actions                  ($ Millions)
                                                    OTS CAMELS                2        2             3        5
against IMB. Table 12 provides an                   Composite
overview of IMB’s financial                         Rating
condition and corresponding                         FDIC LIDI                 C        D            E        n/a
                                                    Rating
supervisory ratings during this phase.              FDIC Insurance            1A       1A           1B       3C
                                                    Premium Rating
FDIC RISK MONITORING                               Source: OIG analysis of FDIC documents.
ACTIVITIES – BROAD
PERSPECTIVE

During this period, the concerns related to subprime and non-traditional lending and the use of
volatile funding sources reported by FDIC regional and national risk management committees
and offices in prior periods were heightened. Table 13 presents excerpts from the San Francisco
Regional Risk Committee and the FDIC’s National Risk Committee reports related to prime and
subprime lending and large bank risks.

Table 13: Excerpts from Selected SFRO Risk Committee Reports*
                        Risk Issue                                  Oct 2007            March 2008
Prime Lending                                                   Significant           Significant
Subprime Lending                                                Significant           Significant
Large Bank Risks                                                Significant           Significant
 Source: OIG review of DSC risk management reports.
*Note: The table presents color-coded information about the FDIC’s level of concern with a particular issue with
yellow, orange, and red corresponding to a medium, elevated, and high level of concern, respectively. The table
also presents an assessment of the exposure (limited, moderate, and significant) that measures the likely impact of an
adverse risk area on the region’s banking industry.

Among other things, the SFRO Regional Risk Committee reports recommended supervisory
strategies to address identified risks, including monitoring institutions with elevated exposure to
subprime and non-traditional mortgages; participating in OTS examinations and holding
quarterly management meetings with OTS to discuss large thrift issues; and improving
information sharing between regulators to enable proper monitoring of risks.

In the May 2007 risk case, DIR reported that the financial health of banks remained strong but
identified a number of issues warranting monitoring. These included (1) the performance of
mortgage loans, particularly non-traditional and subprime; (2) earnings performance and net
interest margin compression, in particular at small banks; (3) commercial real estate
concentrations, especially in construction and development lending; and (4) innovations in
financial markets, credit risk transfer, and the opaqueness of structured products. The October
2007 and May 2008 risk cases reported significant declines in bank industry earnings and
historic levels of non-current mortgage loans and loan charge-offs.


                                                         23
FDIC RISK MONITORING AND SUPERVISORY ACTIVITIES – IMB-SPECIFIC

LIDI and Offsite Analysis of IMB
                                                      Table 14: Snapshot of the FDIC’s Monitoring and
The FDIC lowered IMB’s LIDI rating                    Supervision Activities of IMB – mid-2007 to mid-2008
                                                                        3rd Qtr  4th Qtr 1st Qtr 2nd Qtr
from a B/C to a C in the third                                           2007     2007    2008    2008
quarter 2007, meaning that while IMB           Completed Required          9        9       9       9
was more susceptible to adverse events,        Reports
the likelihood of near-term regulatory         FDIC Problem Bank                          1/25    6/09
intervention was low under current             Memo
                                               SAER Completed             n/a      n/a     n/a      9
conditions, but could be required under        ORL Triggered
certain stress events. DSC further             Reconciliation List
downgraded IMB’s LIDI rating to a D in         Triggered
                                               Back-up Exam                         9
the fourth quarter 2007, indicating that       Requested
formal or informal regulatory action          Source: OIG analysis of FDIC documents.
appeared likely in the near-term or had
already occurred. The LIDI report
showed deterioration at IMB, with most
of the financial aspects of IMB operations under significant stress. The report further noted a
continued increase in the number of non-performing assets and a projection that 50 percent of
IMB’s $1.2 billion in construction loans would be non-performing by the end of the year.

The first quarter 2008 LIDI report indicated that IMB’s risk exposure was complicated by the
large quantity of non-traditional mortgages that IMB was unable to sell in 2007; noted problems
with IMB’s financial condition; and downgraded the LIDI rating to an E, indicating that IMB
faced significant exposure to adverse business, financial, or economic conditions that could lead
to pronounced uncertainties related to the bank’s ongoing viability. The report considered IMB a
potential failure for first quarter 2009, emphasizing its high liquidity stress, poor asset quality,
inadequate capital, and poor earnings.

During the first three quarters of 2007, IMB was not included on the ORL. As previously
discussed, the ORL is primarily focused on 1- and 2-rated institutions and the ORL flags
institutions that have a 35-percent probability of a downgrade or institutions that are
experiencing rapid growth. During that time period, the FDIC’s offsite system assigned IMB a
less than 21-percent probability of downgrade. 15




15
  In February 2009, the FDIC OIG Office of Audits issued a report, FDIC’s Controls Related to the Offsite Review
List (Report No. AUD-09-004). In the report, DSC pointed out that although the ORL may not have captured a
significant percentage of institutions that were downgraded, the same institution may have been receiving additional
supervisory attention through other monitoring tools.

                                                        24
Deposit Insurance Premiums

Although the LIDI downgrades indicated concern
                                                             Table 15: IMB Insurance Assessment
for the health of IMB, those rating changes did not          Payments 2001 to 2008
require that the FDIC adjust the insurance premium                     Year              FDIC Payment
rate paid by IMB or require the inclusion of IMB on                    2001                              $0
the FDIC Problem Bank List (the FDIC’s Problem                         2002                        $920,080
Bank List only includes institutions with CAMELS                       2003                              $0
                                                                       2004                              $0
composite ratings of 4 or 5). According to FDIC
                                                                       2005                              $0
policy, effective on January 1, 2007, the insurance                    2006                              $0
premium rate paid by an institution is dependent, in                   2007                      $9,969,828
part, on the PFR’s most recent CAMELS rating                           2008                      $4,653,702
                                                              Total                            $15,543,610
unless the FDIC disagrees with the rating. In 2007,
                                                             Source: FDIC’s Division of Finance.
OTS rated IMB a CAMELS composite 2 (with all             *Note: Between 1997 and 2006, institutions rated
components rated 2). The FDIC did not issue a            “1A” were generally not assessed a premium. A high
problem bank memorandum until 2008; therefore,           percentage of institutions were classified as “1A”.
IMB’s deposit insurance premium was unaffected.
The FDIC ultimately lowered IMB’s insurance premium rating to R-II (equivalent to a “1B”
under the old system) during the first quarter of 2008 and lowered the rating again to R-IV
(equivalent to a “3C” under the old system) in the second quarter of 2008. Table 15 shows the
insurance premiums paid by IMB from 2001-2008, excluding payments related to the Financing
Corporation. 16

During a discussion of a draft version of this report, DIR officials confirmed that IMB’s
CAMELS rating and capital level determined IMB’s risk category for deposit insurance premium
purposes. During 2007, the FDIC assessed IMB at the highest rate possible under the R-I risk
category. DIR officials noted that either the OTS would have had to lower IMB’s CAMELS
rating, or the FDIC would have had to have a ratings disagreement, or IMB would have had to be
less than well-capitalized for the FDIC to increase IMB’s insurance premiums despite the bank’s
higher-risk business activities and dependence on volatile funding sources. DIR noted that the
risk-based assessment system’s reliance on CAMELS and capital levels is based on regulation,
not statute. In this regard, in 2006, DIR presented a briefing to the FDIC Board on insurance
pricing and proposed to broaden the factors used in determining premium assessments for large
banks in the R-I risk category. However, even under this proposal, a change in IMB’s CAMELS
or capital levels or a ratings disagreement would have been required to move IMB to a lower
insurance premium risk category because IMB was already paying the highest rate under the R-1
risk category.




16
  The Financing Corporation has separate authority from the FDIC’s authority to assess premiums for deposit
insurance to collect funds from FDIC-insured institutions sufficient to pay interest on bonds related to the Federal
Savings and Loan Insurance Corporation that were issued in the 1980s. The FDIC acts as a collection agent for the
Financing Corporation.

                                                         25
Development of Capital Needs Model and New Reports

In addition to its routine analyses, at the direction of the FDIC Chairman, the FDIC also
developed a capital needs model that analyzed the West Coast thrifts 17 in order to determine the
amount of capital required to keep those financial institutions as going concerns. This
measurement of required capital was different from existing FDIC regulatory measurements, as
it focused on forward-looking, long-term capital requirements similar to a private-sector
purchase analysis rather than on more immediate requirements to meet regulatory capital
thresholds.

In April 2008, the FDIC sent capital markets personnel to IMB to collect the required data to run
the capital needs model to determine the amount of capital required to maintain IMB as a going
concern. The model showed that IMB required between $1 billion and $3 billion. The FDIC
shared its capital needs analysis with the OTS, but email correspondence indicated that the OTS
disagreed with the model and its resulting analysis. However, the OTS did not have its own
model to determine IMB capital requirements or refute the FDIC’s model assumptions.

Additionally, the FDIC established regular meetings with the OTS, the PFR of the West Coast
thrifts, and requested specific updates from OTS concerning IMB’s liquidity position and access
to funding from the FHLB and capital markets. Information from those reports was closely
watched by FDIC regional and headquarters personnel.

Participation in OTS On-Site Examination

In September 2007, the SFRO Regional Risk Committee recommended exercising back-up
examination authority for the West Coast Thrifts to include participation of FDIC capital markets
experts in those examinations. After IMB announced its financial results for the third quarter of
2007 and reported a $202 million loss (over five
times higher than forecasted in a September 2007       FDIC’s November 2007 Back-up Examination
                                                                             Request
press release), the FDIC made a formal request to
OTS on November 16, 2007 for three FDIC               In the OTS Regional Director’s December 10,
examiners to participate with OTS in the January      2007 letter to the FDIC accepting the backup
2008 examination of IMB. The OTS Regional             examination authority request, the OTS regional
Director accepted the FDIC’s request but              director stated, “[a]s you know, Indymac Bank is
                                                      currently composite “2” rated and does not fall
suggested limited FDIC involvement as shown in
                                                      within the normal protocol for FDIC participation;
the sidebar.                                          however, given significant changes in asset quality
                                                                 and earnings we suggest one FDIC examiner may
In January 2008, three FDIC examiners arrived at wish to join the examination. Your request for
IMB to participate with the OTS in its           three FDIC examiners is accepted; however, I
                                                 hope that the FDIC team will scale back as work is
examination. Of the three, only the Examiner-In-
                                                 completed.”
Charge remained for the duration of the
examination. The FDIC drafted a problem bank
memorandum based upon an OTS interim downgrade in the CAMELS composite rating from a

17
   The West Coast thrifts included institutions located on the West Coast that were identified by the FDIC as having
residential real estate exposures similar to Countrywide.


                                                        26
2 to 3. The January 25, 2008 memorandum documented the OTS’ significant downgrades in the
component ratings for asset quality and earnings (2 to 4), and confirmed IMB’s poor financial
condition and operating results in the third and the fourth quarters of 2007.

The OTS and FDIC conducted a joint examination of IMB beginning on January 7, 2008, and the
OTS issued its report of examination on June 20, 2008, 3 weeks before IMB’s failure. However,
before that report was issued, on May 27, 2008, the FDIC examiners prepared an Examination
Findings Memorandum (Findings Memo) to document the FDIC’s analysis of IMB. The FDIC’s
on-site examiner drafted the Findings Memo without receiving access to or copies of preliminary
OTS memoranda or findings supporting the OTS examination. The Findings Memo noted
IMB’s record loss of $565 million for 2007, increase in non-performing assets, and precarious
liquidity situation. The Findings Memo preliminarily recommended a CAMELS composite
rating of 4 and was not distributed to the OTS or IMB. The Findings Memo did not address
enforcement actions.

The results of these supervisory efforts prompted the FDIC to issue two problem bank
memoranda. On June 9, 2008, the FDIC issued a problem bank memorandum due to IMB’s
overall unsatisfactory condition. The CAMELS categories reflected unsatisfactory financial
performance and operating results, but the critical issue facing the institution was liquidity stress.
The memorandum noted that the bank’s funding structure, dependent mainly on FHLB advances
and high-cost brokered deposits, would be seriously affected if the institution fell below the well-
capitalized category. The memorandum also noted IMB’s deficient capital, poor asset quality,
significant and continuing losses from operations, and ineffective rate sensitivity management.
The memorandum indicated that the OTS had not completed its January 2008 examination.

On June 20, 2008, the OTS issued its examination results to IMB, and on June 25, 2008, the OTS
notified the IMB Board of Directors of its CAMELS composite 5 rating. The OTS’ report of
examination said that IMB was at risk of failure if it was unable to increase capital to support its
risk profile. The report noted the unprecedented decline in real estate values, increasing credit
quality problems, and a collapse of the secondary market as factors contributing to IMB’s capital
erosion and undermining the viability of IMB’s business model. The report included matters for
IMB management’s attention and corrective actions and, contemporaneous with the issuance of
the report, the OTS entered into a memorandum of understanding, an informal enforcement
action, that directed IMB’s management and board to implement a capital restoration plan. On
June 26, 2008, the FDIC issued an addendum to its June 9, 2008 problem bank memorandum,
which downgraded IMB to a composite 5 rating.

Enforcement Actions

The FDIC did not request that the OTS take, or pursue its own, enforcement action against IMB.
As discussed earlier, as the PFR, the OTS had primary responsibility for taking enforcement
actions against IMB, and Treasury IG’s material loss review faulted the OTS for not doing so.
However, as discussed previously, 12 U.S.C. § 1818(t) allows the FDIC to take enforcement
action against a non-FDIC-supervised institution when the PFR does not resolve the problems
within 60 days or sooner if there are certain exigent circumstances. We did not see evidence that
the FDIC encouraged the OTS to pursue enforcement actions against IMB or that the FDIC

                                                 27
considered imposing its own enforcement action against IMB under Section 8(t). We confirmed
with the FDIC Legal Division that the FDIC has never made use of this provision to impose an
enforcement action against a non-FDIC supervised institution.

In the case of IMB, DSC told us that pursuing such action would have been difficult given the
OTS’ consistent and favorable “2” composite rating of IMB. Specifically, DSC officials
indicated that the following steps would be required to commence a Section 8(t) enforcement
action.

•    OTS would have to complete an examination of the bank.
•    FDIC would have to issue its own examination findings supporting the need for an
     enforcement action.
•    FDIC would need to hold discussions regarding the need for an enforcement action with OTS
     at the regional level.
•    DSC and FDIC Legal would need to coordinate the pursuit of an enforcement action at the
     regional level and develop a written recommendation for the 8(t) action.
•    The written recommendation and supporting case documentation would need to be processed
     by DSC’s Risk Management and Application Section in the Washington Office, and DSC
     would need to coordinate the enforcement action with Legal at the Washington Office level.
•    FDIC would need to hold discussions with OTS at the Washington Office level including
     discussions between the FDIC DSC Director and the OTS Senior Deputy Director.
•    DSC and Legal would need to submit a decision case regarding pursuing an enforcement
     action to the FDIC Board.
•    If the Board approved the case, OTS would have 60 days to resolve issues with the bank
     before the FDIC initiated the enforcement action.

Capital Reporting Irregularities

IMB filed its first quarter 2008 Thrift Financial Report (TFR) in April 2008 and reported that its
regulatory capital exceeded the 10 percent regulatory threshold to be considered
“well-capitalized.” During a May 9, 2008 meeting, however, IMB’s auditor Ernst & Young
(E&Y) notified the OTS Regional Director and the IMB CEO that E&Y identified several
differences it had with IMB’s quarterly financial statements and that those differences combined
with the effects of E&Y modifications from 2007 resulted in IMB’s total regulatory capital
falling below the required regulatory 10 percent threshold for a “well-capitalized” bank. In that
event, statutory rules prohibited IMB from accepting brokered deposits to fund operations unless
IMB received a waiver from the FDIC. 18

During that same meeting, E&Y documents further state that the OTS Regional Director
approved IMB’s recording of a capital contribution from its parent corporation as part of IMB’s
regulatory capital for first quarter 2008 even though the contribution was not made until May
2008, well after the close of the first quarter. The capital contribution had the effect of raising
IMB’s regulatory capital above the required 10 percent threshold to maintain IMB’s regulatory
18
  According to Section 29 of the Federal Deposit Insurance Act, adequately capitalized institutions may accept
brokered deposits if the FDIC grants a waiver. Undercapitalized institutions may not accept brokered deposits. See
Appendix VII for a brokered deposit restriction chart.

                                                        28
“well-capitalized” status and avoid IMB requiring an FDIC waiver to continue accepting
brokered deposits. Additionally, it was during this quarter that the OTS allowed IMB to pay a
$10 million dividend on its preferred shares. Documents show that the FDIC case manager was
copied on this request. IMB subsequently filed an amended TFR after the May 9 meeting that
continued to show that IMB’s regulatory capital exceeded the 10 percent threshold. Documents
indicate the FDIC was not included in the conversations between OTS and E&Y, and the FDIC
was unaware that the accounting for the May capital contribution averted brokered deposit
limitations. 19

Separate from this situation, emails indicate that the FDIC also had concerns with other items
included in the computation of IMB’s first quarter of 2008 regulatory capital. Specifically, the
FDIC Senior Large Financial Institution Analyst noted that intangible assets and deferred tax
assets were not deducted by IMB in computing regulatory capital, and the risk weighting and
rating of other assets was incorrect. Collectively, the capital accounting treatment, dividend
payment, and potential adjustments noted by the FDIC would likely have dropped IMB’s
regulatory capital below the “well-capitalized” threshold. In that event, statutory rules restrict an
institution’s acceptance of brokered deposits and such restrictions had the potential to limit the
cost to the Deposit Insurance Fund. Moreover, the value of assets pledged as collateral to secure
FHLB advances would have been reduced, thereby limiting the amount of FHLB advances and
possibly the cost of IMB’s failure. Further, it may have been possible for the FDIC to exercise
its enforcement powers if it was determined that IMB was in an unsafe or unsound condition. In
response to a draft version of this report, DSC reiterated the lengthy steps required to pursue an
8(t) enforcement action and stated that it would not have been feasible purse an enforcement
action before IndyMac failed in July 2008.

Receipt of Deposit Downloads in Preparation for Resolution

Based on the financial conditions observed at the bank, DSC began coordination efforts with the
FDIC’s DRR in March 2008. The FDIC received the first deposit download from IMB to begin
analysis of IMB accounts for a potential FDIC insurance payout. Following the FDIC’s capital
modeling results, which indicated that IMB would require $1 to $3 billion in capital to remain
viable, DRR obtained a second deposit download on April 23, 2008. Further, the FDIC
examiner relayed information to the FDIC regional office and headquarters about increasing
liquidity constraints due to the FHLB’s reduction of IMB’s borrowing capacity and tightening of
collateral requirements. At that time, IMB’s capital levels were on the brink of falling below the
regulatory well-capitalized threshold.

IMB suffered a withdrawal of $1.55 billion by its depositors after a letter published on
June 26, 2008 to IMB’s regulators from a New York Senator raised concern about IMB’s
viability. On July 1, 2008 the OTS issued a supervisory directive and troubled condition letter to
IMB. Also on July 1, 2008, OTS informed IMB that it would no longer be able to accept
brokered deposits. Until that point in time, the bank had continued to place orders with brokers
for additional deposits. On July 11, 2008, the OTS closed IMB and the FDIC was named
conservator.


19
     Interviews of FDIC regional personnel also indicate the FDIC was unaware of the meeting.

                                                         29
CONCLUSIONS AND MATTERS FOR FURTHER
CONSIDERATION
The FDIC identified and monitored the risks that IMB presented to the Deposit Insurance Fund
primarily through two means: (1) broad risk monitoring activities conducted by DIR and FDIC
risk committees and (2) analysis of IMB-specific data. Additionally, the FDIC participated in a
back-up examination capacity in on-site IMB examinations with the OTS in 2001, 2002, and
2003. All of these activities identified risks associated with IMB’s operations. Nevertheless,
until late in 2007, FDIC officials consistently concluded that despite its high-risk profile, IMB
posed an ordinary or slightly more than ordinary level of risk to the insurance fund based on
IMB’s CAMELS ratings. By the time the FDIC increased its monitoring of IMB, resumed its
on-site presence, and assessed a higher insurance premium, IMB’s financial condition was
irreparable due to the decline in real estate values, increasing credit quality problems, and the
collapse of the secondary market. Further, notwithstanding IMB’s generally unsatisfactory
financial performance starting in 2007, the FDIC did not request that the OTS take or pursue its
own enforcement action against IMB, citing OTS’ consistently favorable composite ratings and
the protracted process for taking such action as substantial obstacles.

This evaluation focused on the FDIC’s role in monitoring one institution—IMB. Therefore, we
are not in a position to reach conclusions or make recommendations on the design and
implementation of the FDIC's system for monitoring risk or making deposit insurance
assessments. Further, we recognize that the FDIC has taken and is considering actions to address
lessons learned to date as a result recent events in the banking industry. With that in mind, we
offer the following as matters for further study and consideration by management.

The FDIC’s Frameworks for Establishing A Supervisory Approach and Making Deposit
Insurance Determinations

The FDIC could give greater consideration to its own independent determination of risk as
insurer (e.g., through LIDI reports and offsite monitoring efforts) in establishing its supervisory
approach and assessing premiums for non-supervised institutions, rather than relying too heavily
on CAMELS ratings from the PFR that may not consider the risks that an institution presents to
the insurance fund. Although the FDIC has made some changes to the insurance assessment
process, the assessments are still principally driven by the CAMELS composite rating and capital
levels. Revising the existing supervisory approach and deposit insurance frameworks to provide
the FDIC with more independence and flexibility could increase the utility of the significant
resources that the FDIC invests in its internal monitoring systems, reports, and analyses.

Delegations of Authority and Reporting Requirements Surrounding Back-up Examination
Authority Decisions

As discussed in the report, case managers prepare a memorandum documenting the basis for a
back-up examination request and submit the request to the FDIC Regional Director or Deputy
Regional Director who may accept or reject the request. The FDIC regional offices report
back-up examination requests that have been completed or that are in process to the FDIC DSC
Director in Washington. The report does not, however, track recommendations for back-up

                                                30
examinations that are not approved by FDIC regional management. Given the significance of
back-up examinations to the FDIC’s supervisory approach, regional decisions to not approve
back-up examinations may warrant higher-level management attention in Washington, or at a
minimum, should be reported to DSC Washington officials for risk monitoring or interagency
coordination purposes.

Appointment and Transition of Case Managers for Large, High-Risk Institutions

Case managers play a critical role in assessing the risk an institution poses to the Deposit
Insurance Fund. Achieving continuity of case managers is important because the case manager
builds a relationship with the institution and the PFR, and develops a comprehensive
understanding of each company’s operations, risks, and business lines. Three different case
managers were assigned to monitor IMB during one 18-month period because of a number of
reorganizations and other staffing changes. Although the SFRO worked to ensure that transitions
between case managers were smooth, additional guidance may be helpful to more efficiently and
effectively transition oversight between existing and new case managers.

Authorities Related to Requesting Back-up Examinations and Pursuing Enforcement Actions
Against Non-Supervised Institutions

While the OTS generally allowed the FDIC to participate in on-site examinations, had the OTS
disagreed with FDIC back-up examination requests, or limited the FDIC’s presence as occurred
at the January 2008 examination, FDIC regional officials may have been reluctant to pursue
obtaining the authority given the resources required to challenge and overturn the PFR’s
decision. In the event that the FDIC and the PFR disagree as to the condition of an institution for
purposes of exercising back-up authority, resolving the matter can require involvement on the
part of the FFIEC as well as the FDIC Chairman and the head of the cognizant regulatory
agency.

With respect to the FDIC pursuing enforcement actions against non-supervised institutions,
IMB’s improper treatment of a capital contribution, together with other computations of concern
to the FDIC in the first quarter of 2008, would likely have dropped IMB’s regulatory capital
below the “well-capitalized” threshold. As a result, it may have been possible for the FDIC to
exercise its enforcement powers if it was determined that IMB was in an unsafe or unsound
condition. FDIC management officials told us, however, that pursuing such action would have
been difficult, if not impractical, in light of IMB’s historically favorable composite ratings and
the time and resources that would need to be committed to complete the required steps.

Both of these authorities are important tools that can be used by the FDIC to protect the
insurance fund. However, the Corporation’s ability to use the tools could likely be enhanced by
more efficient and streamlined processes.




                                                31
CORPORATION COMMENTS AND OIG EVALUATION
On August 17, 2009, the Director, DSC, provided a written response to the draft of this report.
DSC’s response is presented in its entirety in Appendix IX. DSC’s response addressed two of
our four matters for further consideration. DSC indicated that steps were underway to track all
recommendations for back-up examinations and that higher-level management review of such
information may be warranted. DSC also discussed that it has made improvements in LIDI
reporting and instituted a quality assurance process for LIDI reporting that should help to address
case manager appointment and transition.

DSC’s response did not specifically address our matters for further consideration related to
(1) the FDIC’s frameworks for establishing a supervisory approach and making deposit
insurance determinations or (2) authorities related to requesting back-up examinations and
pursuing enforcement actions against non-supervised institutions. Because the draft report
contained no recommendations, a written response to each of the matters for further
consideration was not required. These matters involve important regulatory and interagency
policies, procedures, and practices that may be more appropriately considered at the FDIC Board
of Directors level.




                                                32
                                                                             Appendix I


                   Objective, Scope, and Methodology
The objective of our review was to evaluate the FDIC’s role in monitoring IMB,
including determining: (1) when the FDIC became aware of problems at IMB and
(2) what actions were taken by the FDIC to mitigate those problems. The scope of our
review included evaluating documents and actions taken by FDIC from the inception of
IMB in July 2000 to July 2008 when IMB was placed into conservatorship.

Specifically, we:
       • Reviewed the Case Managers Procedures Manual to identify the required
           actions to be taken by case managers, such as preparing offsite monitoring
           reports, Summary Analysis of Examination Reports, Large Insured Depository
           Institution (LIDI) reports, and the Risk-Related Premium System
           Reconciliation List;
       • Reviewed and developed process maps for required monitoring activities
           according to the FDIC’s Case Managers Procedures Manual;
       • Obtained and reviewed all required case manager reports mentioned above to
           determine whether they were prepared;
       • Interviewed five FDIC San Francisco Region case managers who had overall
           responsibility for IMB at varying points during FDIC’s supervisory period;
       • Interviewed San Francisco Region management officials for their views on the
           FDIC’s supervisory oversight of IMB;
       • Interviewed FDIC regional capital markets specialists;
       • Reviewed the interagency agreement entitled “Coordination of Expanded
           Supervisory Information Sharing and Special Examination” to determine
           when the FDIC can invoke the back-up examination authority;
       • Interviewed DSC Headquarters management officials for their views on the
           supervisory oversight of IMB and requests for back-up authority;
       • Interviewed the FDIC Examiner-in-Charge who participated in OTS’
           examination of IMB in January 2008;
       • Reviewed documents in the case manager files in the FDIC’s San Francisco
           Regional Office;
       • Generated a timeline of all FDIC activities and significant events during the
           IMB supervisory period;
       • Reviewed OTS work papers for information relevant to issues noted at IMB
           and correspondence with the FDIC; and
       • Reviewed Ernst & Young (IMB’s external auditors) work papers for relevant
           issues with respect to IMB capital contributions.

We performed our evaluation from October 2008 through April 2009 in accordance with
the President’s Council on Integrity and Efficiency’s Quality Standards for Inspections.




                                           33
                                                                         Appendix II


                           Glossary of Terms
Alt-A Loan           A mortgage made to a borrower that typically does not involve
                     verification or documentation of income, assets, or
                     employment. Instead, the approval of the loan is based
                     primarily on the applicant’s Fair Isaac Corporation (FICO)
                     credit score.

Brokered Deposits    Deposit brokers provide intermediary services for banks and
                     investors by linking bankers to a broad range of potential
                     investors who have no relationship with the bank but who
                     actively seek the highest returns offered within the financial
                     industry.

CAMELS               CAMELS is the acronym for the six essential components used
                     to rate an institution’s financial condition under the Uniform
                     Financial Institution Rating System. CAMELS components
                     include: Capital adequacy, Asset quality, Management,
                     Earnings, Liquidity, and Sensitivity to market risk. CAMELS
                     ratings include a numeric score for each of the six components
                     and an overall numeric composite rating. The numeric ratings
                     range from 1 (best) to 5 (worst) and generally mean:
                         1    - Sound in every respect
                         2    - Fundamentally sound
                         3    - Some degree of supervisory concern
                         4    - Unsafe and unsound practices or conditions
                         5    - Extremely unsafe and unsound practices or
                                  conditions

Federal Home Loan    The Federal Home Loan Bank (FHLB) System is composed of
Bank (FHLB)          12 Federal Home Loan Banks that provide its member
                     institutions with financial products and services to assist and
                     enhance the members’ financing of housing and community
                     lending. Each FHLB is a separate legal entity that is
                     cooperatively owned by its member financial institutions within
                     distinct geographic areas that the FHLB has been designed to
                     serve. The FHLB System is considered a government
                     sponsored entity since it was expressly created by Congress in
                     1932 and its obligations are considered to be implicitly
                     guaranteed by the federal government.

LIDI                 Large Insured Depository Institution

Mortgage Servicing   Mortgage serving rights are contractual obligations undertaken
Rights               by an institution to service a mortgage. Common rights
                     include: the right to collect mortgage payments monthly, set

                                       34
                                                                             Appendix II

                        aside taxes and insurance premiums in escrow, and forward
                        interest and principal to the mortgage lender.

Prompt Corrective       Section 38 of the Federal Deposit Insurance Act requires that
Action (PCA)            federal regulators initiate actions when an institution fails to
                        meet minimum capital thresholds. See Appendix VII for PCA
                        capital categories.

Securitization          The process of purchasing and pooling mortgage loans and
                        issuing securities that represent claims on the principal and
                        interest payments made by borrowers on the loans in the pool.

Tier 1 (Core) Capital   Is a regulatory measure of an institution’s financial strength and
                        generally includes equity capital (common stock, non-
                        cumulative perpetual preferred stock and minority interests in
                        consolidated subsidiaries).




                                          35
                                                                                        Appendix III


                           Case Manager Responsibilities

Directing Supervisory           −   The supervisory strategy of all FDIC insured institutions is
Strategy                            primarily driven by statute according to their CAMELS rating,
                                    with adjustments resulting from changes in an organization’s risk
                                    profile, structure, business strategies, or logistical considerations.

Establishing and                −   The goal of this dialogue will be to enhance proactive risk
Maintaining a Dialogue              assessment in a non-intrusive manner. Therefore case managers
                                    must remain cognizant that inquiries should address information
with the Primary                    important to this risk assessment objective.
Regulator
Reviewing Examination           −   These activities include, among other things, preparing
Reports, Applications,              summaries of findings, memoranda, correspondence, and
                                    recommendations for the DSC Regional Director, Washington
Investigations and                  Office, State Authorities, other Federal regulatory agencies, and
Correspondence                      financial institutions.

Initiating and Developing       −   This often involves initiating, coordinating, or participating in
Corrective Programs                 conferences and meetings with DIR and other supervisory
                                    authorities and bank officials, and developing informal and
                                    formal programs designed to correct deficiencies in the
                                    operations and condition of the financial institution.

Coordinating with               −   Communication and coordination with Regional specialists on
Specialty Areas                     substantive issues regarding institutions within the case
                                    manager’s caseload to ensure that a proper supervisory action is
                                    taken to minimize risk to the Deposit Insurance Fund. For IMB,
                                    the Capital Markets specialist played a critical role.

Preparing Management            −   Case managers prepare or provide critical input to a variety of
Information Reports                 reports to ensure that senior management within the FDIC
                                    (regional, divisional, and corporate-wide) is informed of
                                    significant existing or emerging risks on specific institutions
                                    within their respective caseloads.

Performing Offsite              −   The FDIC’s offsite monitoring programs are used to identify an
Monitoring and Preparing            institution or group of institutions that pose elevated risks to the
                                    insurance fund so that supervisory strategies can be adjusted.
Analyses                            The offsite reviews are intended to identify potential emerging
                                    problems and, as such, include only 1-and 2-rated institutions.

Keeping Abreast of              −   Case managers need to maintain an awareness and understanding
Current Economic Trends             of economic and financial trends that could impact the condition
                                    of institutions within their assigned caseload.

Source: Case Managers Procedures Manual.




                                               36
                                                                                     Appendix IV


                        Timeline of Significant Events
    Date                                                  Event
07/01/2000      −   IMB formed when the First Federal Savings and Loan association of San Gabriel Valley
                    becomes a wholly-owned subsidiary of Indymac Bancorp. Inc. The thrift changed its
                    name to IMB Bank FSB, became an OTS-chartered institution and an insured institution.
04/16/2001      −   OTS and FDIC begin first examination of IMB.
08/24/2001      −   OTS agrees with FDIC composite CAMELS rating and downgrades IMB from a 2 to 3.
09/21/2001      −   The FDIC drafts an internal problem bank memorandum for IMB.
11/05/2001      −   The FDIC and OTS make a joint visit to IMB to review areas that had not been covered
                    during the initial examination.
04/05/2002      −   The FDIC issues another internal problem bank memorandum noting continued problems
                    at IMB. The memorandum states that OTS does not have any formal or informal
                    corrective programs in place for IMB but has requested that IMB temper growth and
                    submit a revised strategic plan in 2 years.
07/29/2002      −   The FDIC and OTS conduct a joint examination of IMB. The FDIC notes that it is in
                    agreement with the OTS on IMB’s composite CAMELS rating but disagrees with OTS on
                    the management and asset quality ratings.
09/29/2003      −   The FDIC and OTS conduct a joint examination of IMB.
06/18/2004      −   FDIC SFRO Regional Director determines exercising back-up examination authority for
                    the 2004 examination of IMB is not warranted.
11/15/2004      −   The OTS begins the 2004 IMB safety and soundness examination.
11/07/2005      −   The OTS begins the 2005 IMB safety and soundness examination.
01/08/2007      −   The OTS begins its 2006 IMB safety and soundness examination.
08/09/2007      −   Countrywide suffers a liquidity crisis and the FDIC worries that Countrywide may fail.
                    The FDIC identifies institutions with business profiles similar to Countrywide that may
                    also suffer similar liquidity issues. IMB and other West Coast thrifts are on that list.
08/22/2007      −   IMB changes its business strategy to become an originator of conforming loans and a
                    reverse mortgage lender.
09/12/2007      −   The FDIC SFRO Risk Committee recommends that the FDIC invoke back-up
                    examination authority for IMB and other West Coast thrifts.
11/16/2007      −   The FDIC requests participation in the OTS examination to commence in January 2008.
4th Qtr. 2007   −   IMB moves $10.7 billion of loans from the held for sale account in its balance sheet to
                    held for investment because of the problems in secondary market.
11/16/2007      −   The OTS approves IMB’s request to pay $10 million dividend on perpetual non-
                    cumulative preferred shares on December 31, 2007.
12/10/2007      −   The OTS accepts the FDIC’s request for back-up examination authority but wants no
                    more than three FDIC examiners to participate.
01/07/2008      −   The OTS begins its examination of IMB 4 months before the scheduled date. Three
                    FDIC examiners participate with the OTS.
01/17/2008      −   The OTS downgrades IMB from a CAMELS composite 2 to a 3.




                                                37
                                                                                    Appendix IV



   Date                                                 Event
01/25/2008   −   The FDIC issues an internal problem bank memorandum documenting the OTS’
                 significant downgrades in the component ratings for asset quality and earnings (2 to 4),
                 confirming IMB’s poor financial condition and operating results in the third and fourth
                 quarters of 2007, and noting that preliminary capital ratios as of the fourth quarter 2007
                 were below agreed-upon levels.
03/07/2008   −   The FDIC receives the first download from IMB to determine insured deposits.
03/17/2008   −   IMB pays $10.6 million dividend on perpetual non-cumulative preferred shares. The
                 OTS approved the request for the dividend on February 12, 2008.
05/07/2008   −   The FDIC presents its capital needs model results to OTS showing that IMB needs
                 between $1 billion and $3 billion to remain a going concern.
05/09/2008   −   Conference call with IMB CEO, OTS Regional Director, and Ernst & Young personnel
                 where the OTS agrees that a capital contribution from IMB’s parent company that was
                 actually made in May 2008 could be considered made prior to March 31, 2008 in order to
                 raise regulatory capital above the well-capitalized threshold.
05/27/2008   −   The FDIC issues its finding memorandum under its back-up examination authority. The
                 preliminary recommendation is a CAMELS composite 4 rating. The FHLB also
                 increases collateral requirements for IMB portfolios.
06/9/2008    −   The FDIC issues an internal problem bank memorandum.
06/11/2008   −   OTS presents IMB with a Memorandum of Understanding that the IMB Board of
                 Directors signs on June 26, 2008.
06/20/2008   −   The OTS issues its report of examination, downgrading IMB to a CAMELS composite 5.
06/26/2008   −   The FDIC amends its June 9, 2008 problem bank memorandum and rates IMB a
                 CAMELS composite 5. This same day a New York Senator’s letter to IMB’s regulators
                 about IMB’s viability is published and IMB suffers a withdrawal of $1.3 billion by its
                 depositors.
06/25/2008   −   The OTS and the FDIC meet with IMB management and some Board members to inform
                 them of the CAMELS composite 5 rating.
07/01/2008   −   OTS issues a supervisory directive and troubled bank letter to IMB.
07/10/2008   −   OTS’ Senior Deputy Director signs the decision memorandum to close IMB.
07/11/2008   −   OTS closes IMB and the FDIC is named conservator.
07/14/2008   −   IndyMac Federal Bank, FSB opens for business.




                                             38
                                                                             Appendix V



              FDIC Offsite Monitoring Systems and Reports
Monitoring Tool      Frequency                              Definition
SCOR – Statistical   Quarterly   A financial model that uses statistical techniques, offsite data,
CAMELS Offsite                   and historical examination results to assign an offsite
Rating                           CAMELS rating and to measure the likelihood that an
                                 institution will receive a CAMELS downgrade at the next
                                 examination.

SCOR-Lag             Quarterly   A derivation of SCOR that attempts to more accurately assess
                                 financial condition in rapidly growing banks. SCOR-lag
                                 begins with current period SCOR data and then adjusts the
                                 asset quality ratios by a one-year lag. For example, the
                                 numerator for lagged past due ratios is the current period past
                                 due while the denominator uses loans from one year earlier.

REST – Real          Quarterly   Attempts to simulate what would happen to banks today if
Estate Stress Test               they encountered a real estate crisis similar to that of New
                                 England in the early 1990s. REST uses statistical techniques
                                 and Call Report data to forecast an institution’s condition over
                                 a 3 to 5 year horizon and provides a single rating from 1 to 5
                                 in descending order of performance quality.

GMS – Growth         Quarterly   Identifies institutions experiencing rapid growth and/or
Monitoring                       having a funding structure highly dependent on non-core
System                           funding sources. Using statistical techniques, GMS analyzes
                                 financial ratios and changes in volume to identify banks that
                                 have experienced rapid growth and assigns a percentile
                                 ranking between 0 and 99.

CG – Consistent      Quarterly   A cumulative growth score for an institution using up to 20
Grower                           quarters of GMS scores. Individual quarter GMS scores are
                                 weighted based on the percentile rank for each period. This
                                 weighting process results in a single GMS score that is
                                 representative of multiple periods.




                                          39
                                                                                   Appendix V



Monitoring Tool       Frequency                                  Definition
QLA – Quarterly        Quarterly      Developed to identify institutions exhibiting high-risk lending
Lending Alert                         activity such as subprime lending.

Young Institutions     Ongoing        A flag that identifies institutions that are less than 8 years old.
                                      Research indicates that, on average, newly chartered
                                      institutions take approximately 8 years to perform similar to
                                      established institutions.

Multiflag              Quarterly      Combines the multiple risk measures discussed above. The
                                      thresholds are relaxed to allow for the convergence of
                                      multiple risk exposures. This allows institutions that would
                                      not normally be identified by a single measure to be identified
                                      as a multiflag outlier. Institutions with multiple exceptions
                                      are considered high risk. In order to be identified as a
                                      multiflag, an institution must exceed four or more of the
                                      following thresholds: SCOR or SCOR-lag greater than 2.10;
                                      REST rating of 3.50 or greater; GMS rating in the 90th
                                      percentile or greater; Consistent Grower rating of 90 or
                                      greater; QLA flag of “Y”; and a Young Institution flag of
                                      “Y.”

ORL – Offsite          Quarterly      CAMELS composite 1- and 2-rated institutions are included
Review List                           on the ORL based on the SCOR, SCOR-Lag, and GMS risk
                                      measures. The ORL includes those 1- and 2-rated institutions
                                      identified by SCOR or SCOR-Lag as having a 35 percent or
                                      higher probability of downgrade to 3 or worse. Institutions
                                      with a composite rating of 1 or 2 and in the 98th or 99th GMS
                                      growth percentile are also included on the ORL.

Risk Related         Semiannual       The two components of the RRPS, the supervisory subgroup
Premium System       (prior to        and capital group, determine the assessment risk classification
(RRPS)               1/1/07)          rate of an institution and ultimately an institution’s insurance
Reconcilement        Quarterly        premium. The supervisory subgroup is based on an
List                 (after 1/1/07)   institution’s CAMELS rating. Each quarter RRPS compares
                                      CAMELS ratings provided by the other federal regulators to
                                      those stored in the FDIC’s ViSION database and identifies
                                      institutions whose ratings differ. Those institutions are placed
                                      onto a reconciliation list. A case manager must review each
                                      institution on the list and determine whether the CAMELS
                                      rating in ViSION, the CAMELS rating provided by the other
                                      regulator, or a different CAMELS rating discovered during
                                      the review should be used. RRPS then assigns the
                                      Supervisory Group based on the CAMELS ratings verified by
                                      the case manager.

                                               40
                                                                           Appendix V



Monitoring Tool    Frequency                              Definition
Uniform Bank      Quarterly    The UBPR is an analytical tool created for bank supervisory,
Performance                    examination, and management purposes. The report is
Report (UBPR)                  computer generated from a data base derived from public
                               sources. It contains several years’ worth of data in the form
                               of ratios, percentages, and dollar amounts computed mainly
                               from Reports of Condition and Income submitted by the bank.
                               Each UBPR also contains corresponding average data for the
                               bank's peer group and percentile rankings for most ratios.
                               The UBPR therefore permits evaluation of a bank's current
                               condition, trends in its financial performance, and
                               comparisons with the performance of its peer group.

Uniform Thrift    Quarterly    OTS' national financial monitoring report used by OTS
Performance                    examiners and analysts to monitor and analyze the activities,
Report (UTPR)                  condition, and performance of individual thrift institutions.
                               The UTPR is also used to focus examiner efforts for on-site
                               examinations of thrifts. First developed in 1992, the detailed
                               UTPR tracks a savings association's financial information
                               over a 3-year period. OTS computers produce a UTPR for
                               each savings institution, using data submitted by savings
                               associations in their quarterly Thrift Financial Reports. A
                               UTPR report compares a thrift institution to other peer group
                               associations using percentile ranks and medians, and
                               identifies trends.

Supervisory Watch Ad Hoc       A list in each region that identifies the region’s selection of
List                           institutions for close monitoring. The list is more expansive
                               than the FDIC Problem Bank List.

Annual Report     Annual       Insured depository institutions with total assets of $500
Review                         million must engage a public accountant to prepare annual
                               financial statements in accordance with Generally Accepted
                               Accounting Principles (GAAP), and produce annual reports.
                               The case manager is responsible for making a determination
                               as to whether a change in supervisory strategy or follow-up
                               action is needed.

Summary Analysis Based on      The SAER provides a historical record of an institution, and
of Examination   Examination   includes comments briefly summarizing examination
Report (SAER)    Schedule      findings. In developing SAER comments, emphasis is placed
                               on the CAMELS components and weaknesses identified in
                               the report of examination.



                                        41
                                                                                    Appendix VI


         Large Insured Depository Institution (LIDI) Ratings
Rating                                               Definition
  A       Low level of concern regarding ultimate risk to the insurance funds: Organizational
          structure, financial condition, and operating performance exhibit stability and are strong (or
          are expected to become strong in the near-term (not to exceed 1 year)) based upon well-
          defined established trends or other available and reliable information. Management team is
          well regarded. Reasonably expected changes in operating environment are not likely to
          materially raise the company’s risk to the FDIC insurance funds. The likelihood of
          regulatory intervention is remote.

   B      Ordinary level of concern regarding ultimate risk to the insurance funds: Organizational
          structure, financial condition, and operating performance are good (or are expected to
          become good in the near-term) even though the company may exhibit some modest
          weakness in one or more fundamental areas of evaluation. Overall trends are stable, but
          some downward movement may be evident. Management is considered capable. The
          company may be more vulnerable to operating environment changes than those rated A,
          but still should be able to adapt without materially raising the company’s risk to the FDIC
          insurance funds. Barring unusual circumstances, regulatory intervention is unlikely.

  C       More than an ordinary level of concern regarding ultimate risk to the insurance funds:
          Organizational structure, financial condition, or operating performance are marginal (or are
          expected to be marginal in the near-term). Erratic trends also may be evident. At least one
          significant weakness had been noted in a critical area. Management’s abilities may be
          considered marginal relative to the operational needs of the company. Reasonably
          expected operating environment changes could materially raise the company’s risk to the
          FDIC insurance funds. Despite evident weakness, probability of failure or need of FDIC
          financial assistance in the short- to immediate-term is unlikely.

  D       High level of concern regarding the ultimate risk to the insurance funds: Organizational
          structure, financial condition, or operating performance lack stability and exhibit (or are
          expected to exhibit in the near-term) pronounced weakness in several fundamental areas of
          evaluation. Overall evaluation is poor. Management resources may be inadequate. The
          company may also be unduly vulnerable to reasonably expected changes in the institution’s
          operating environment. There is a distinct possibility of failure or need of FDIC financial
          assistance if problems identified are not addressed in the short- to immediate-term.

   E      Serious concerns regarding ultimate risk to the insurance funds: Organizational structure,
          financial condition, or operating performance exhibited (or are expected to exhibit in the
          near-term) indicate the company may not be viable. At least one significant insured
          subsidiary at risk of failure. Disbursement of deposit insurance funds in less than 24
          months is probable.

Source: Case Managers Procedures Manual, Chapter 11




                                                42
                                                                                           Appendix VII



   PCA Capital Categories and Brokered Deposit Restrictions
                         Total Risk-       Tier 1 Risk-
                           Based              Based                                         Brokered Deposit
     Category             Capital            Capital           Leverage Ratio                 Restrictions¹
Well Capitalized          10 percent or      6 percent or     5 percent or greater                   None
                              more              more

   Adequately             8 percent or       4 percent or     4 percent or greater or   The institution must request a
   Capitalized               more               more          3 percent or greater if   waiver from the FDIC to
                                                              bank has a composite      accept brokered deposits.
                                                              CAMELS rating of
                                                              “1”
Undercapitalized          Less than 8        Less than 4      Less than 4 percent or    The institution cannot receive
                           percent            percent         less than 3 percent if    brokered deposits.
                                                              bank has a composite
                                                              CAMELS rating of
                                                              “1”
 Significantly     Less than 6         Less than 3            Less than 3 percent       The institution cannot receive
Undercapitalized     percent              percent                                       brokered deposits.
   Critically    The institution’s tangible equity is 2 percent or less                 The institution cannot receive
Undercapitalized regardless of its other capital ratios                                 brokered deposits.
Source: Section 38 of the FDI Act.
Note: (1) Section 38(e) of the FDI Act imposes several other mandatory restrictions or actions for
institutions that fall below adequately capitalized.




                                                    43
                                                                                                                                                       Appendix VIII


                                                  Financial and Supervisory Data for IMB – 2001-2008

                                                       Phase I                               Phase II                               Phase III
                                                                                                  1 Qtr.   2 Qtr.       3 Qtr.    4 Qtr.   1 Qtr.    2 Qtr.
                                                2001     2002    2003      2004      2005 2006     2007     2007         2007      2007     2008      2008
                                                                  IMB Financials and CAMELS/Insurance Ratings
                        IMB Assets               7.4      9.5     13.1     15.6      20.3 28.7     29.1     31.3         33.5      32.5      32      30.7
                        ($ Billions)
                        IMB Net                  119     143      180       183       307      357      59.4     50      (183)    (491)     (168)     n/a
                        Income/(Loss)
                        ($ Millions)
                        CAMELS                    3       2        2         2         2        2        2       2         2        2         3        5
                        Composite Rating
                        FDIC Insurance           1A       1A      1A        1A        1A       1A       1A       1A       1A       1A        1B       3C
                        Premium Rating
                                                                              FDIC Risk Monitoring
                        SAER Completeda          9        9        9         9       9      n/a          9       n/a      n/a      n/a       n/a      9
                        LIDI Report              No       9       B/C       B/C     B/C    B/C          B/C      Inc       C        D         E       n/a
                        Completed with
                        Ratingb
                        ORL Triggered                             3Q         1Q       2Q       3Q                                            n/a      n/a
                                                                  4Q         2Q       3Q       4Q
                                                                             3Q
                        Reconciliation List     7/01              1/01      1/01     1/01      1/01                                                   n/a
                        Triggered                                 7/01      7/01     7/01
                        Completion of            No       9        9         9        9         9        9       No       9         9        9         9
                        required reports
                        FDIC Problem Bank       9/21     4/05                                                                               1/25     6/09
                        Memo
                                                                          Regulatory Tools Used by FDIC
                        Back-up                   9       9        9         9                                                      9
                        Examination                                        Denied
                        Requested                                            by
                                                                           SFRO
                        Enforcement Actions
Notes:
         aThe examination report for financial information as of September 30, 2006 was not completed until 1st quarter of 2007.
         b
           The 1st quarter of 2001 LIDI report was missing, but the FDIC was with the OTS examining IMB at that time. The 2nd quarter 2007 LIDI was incomplete
         because financial data was included in the report, but the case manager narrative was missing. That report was the first under a new LIDI reporting system.




                                                                                        44
                                                                                                           Appendix ix


                              Corporation Comments




FDICI
Federal DeDoslt Insurance CorDoratlon
550 17th Streel NW. Washington, DC. 2029-99                              Divisioo 01 Supeisioo an Coosumer Protecion


                                                                         August 17. 2009




MEMORANDUM TO: Stephen M, Beard
                                  Assistant Inspector General for Evaluations and Management

FROM: Sandra L. Thoifpsoni
                                   Director

 SUBJECT: Response to the Draft Audit Report Entitled, The FDIC's Role in the
                                   Monitoring of IndyMac Bank (Assignment No. 2008-043)


 We have reviewed the Offce of Inspector General's (OIG) draft evaluation report, dated June 26,
 2009, entitled The FDICs Role in the Monitoring of IndyMac Bank (1MB). The Offce ofThrift
 Supervision was the primary federal regulator (PFR) for 1MB from 2000 to 2008. The report
 outlines the FDIC supervisory role and authorities as the back-up supervisor, and summarizes the
 sequence of events leading up to 1MB's failure, including FDIC's involvement and analysis both on-
 and off-site. Although the 010 makes no recommendations, we offer our response to some of
                                                                                                                   the
 matters for further consideration identified in the report.

 We agree that DSC should track all recommendations for back-up examinations. Specific steps are
 now underway to develop such a process, including the possibility of including this information in
 the quarterly LlDI report. We agree that this type of information may warrant a higher-level
 management review and would be useful for risk monitoring purposes and interagency coordination.

 With respect to the appointment and transition of case managers for large, high risk institutions,
 DSC implemented in 2007 a revised Large Insured Depository Institution (LlDI) reporting process
 that synthesizes information from both internal and market-based sources to improve off-sight
 monitoring of large banks. Additionally. we implemented both a qualitative and quantitative Quality
 Assurance (QA) process for the LlDI report in 2007 and in mid-2009 respectively. Both the
 improved LlDI report and QA processes are designed to address some of
                                                                                        the concerns expressed in
 the draft evaluation report about case manager appointment and transition.

 Thank you for the opportunity to respond to your report. The FDIC continues to look for and
 implement improvements to our supervisory program in an effort to address lessons learned from the
 failure of institutions, such as 1MB, as well as recent events that have impacted the banking industry.




                                                  45
